<html>
<title> - ESEA REAUTHORIZATION: THE OBAMA ADMINISTRATION'S ESEA REAUTHORIZATION PRIORITIES</title>
<body><pre>[Senate Hearing 111-911]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-911
 
                         ESEA REAUTHORIZATION: 
                       THE OBAMA ADMINISTRATION'S 
                    ESEA REAUTHORIZATION PRIORITIES 

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

  EXAMINING THE ELEMENTARY AND SECONDARY ACT (ESEA) REAUTHORIZATION, 
 FOCUSING ON THE OBAMA ADMINISTRATION'S ESEA REAUTHORIZATION PRIORITIES

                               __________

                             MARCH 17, 2010

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

55-620 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


























          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut           MICHAEL B. ENZI, Wyoming
BARBARA A. MIKULSKI, Maryland              JUDD GREGG, New Hampshire
JEFF BINGAMAN, New Mexico                  LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington                   RICHARD BURR, North Carolina
JACK REED, Rhode Island                    JOHNNY ISAKSON, Georgia
BERNARD SANDERS (I), Vermont               JOHN McCAIN, Arizona
SHERROD BROWN, Ohio                        ORRIN G. HATCH, Utah
ROBERT P. CASEY, JR., Pennsylvania         LISA MURKOWSKI, Alaska
KAY R. HAGAN, North Carolina               TOM COBURN, M.D., Oklahoma
JEFF MERKLEY, Oregon                       PAT ROBERTS, Kansas
AL FRANKEN, Minnesota
MICHAEL F. BENNET, Colorado
                                       
                                       

                      Daniel Smith, Staff Director

                  Pamela Smith, Deputy Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)

  







                            C O N T E N T S

                               __________

                               STATEMENTS

                       WEDNESDAY, MARCH 17, 2010

                                                                   Page
Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming, 
  opening statement..............................................     3
Duncan, Hon. Arne, Secretary of Education, U.S. Department of 
  Education, Washington, DC......................................     4
    Prepared statement...........................................    10
Dodd, Hon. Christopher J., a U.S. Senator from the State of 
  Connecticut....................................................    13
    Prepared statement...........................................    14
Reed, Hon. Jack, a U.S. Senator from the State of Rhode Island...    18
Burr, Hon. Richard, a U.S. Senator from the State of North 
  Carolina.......................................................    19
Murray, Hon. Patty, a U.S. Senator from the State of Washington..    21
 Murkowski, Hon. Lisa, a U.S. Senator from the State of Alaska...    24
Sanders, Hon. Bernard, a U.S. Senator from the State of Vermont..    26
    Prepared statement...........................................    29
Coburn, Hon. Tom, M.D., a U.S. Senator from the State of Oklahoma    30
Hagan, Hon. Kay R., a U.S. Senator from the State of North 
  Carolina.......................................................    32
Roberts, Hon. Pat, a U.S. Senator from the State of Kansas.......    35
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    37
Alexander, Hon. Lamar, a U.S. Senator from the State of Tennessee    40
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................    42

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    American Association of University Women.....................    51

                                 (iii)

  


                         ESEA REAUTHORIZATION:
                       THE OBAMA ADMINISTRATION'S
                    ESEA REAUTHORIZATION PRIORITIES

                              ----------                              


                       WEDNESDAY, MARCH 17, 2010

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:27 a.m. in 
Room SH-216, Hart Senate Office Building, Hon. Tom Harkin, 
Chairman of the committee, presiding.
    Present: Senators Harkin, Dodd, Murray, Reed, Sanders, 
Hagan, Franken, Bennet, Enzi, Alexander, Burr, Murkowski, 
Coburn, and Roberts.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order.
    Today, we are honored to be joined by the U.S. Secretary of 
Education, Mr. Arne Duncan. As the former Superintendent of the 
Chicago Public Schools, he brought to Washington an enormous 
amount of experience and credibility, along with a strong 
vision for public school reform.
    Today's hearing on the Obama administration's Elementary 
and Secondary Education Act reauthorization priorities provides 
an opportunity to learn more about the details of the 
President's Blueprint for Reform, which just came out 2 days 
ago. In his introduction to the blueprint, President Obama 
said, and I quote,

          ``A world-class education is a moral imperative--the 
        key to securing a more equal, fair, and just society. 
        We will not remain true to our highest ideals unless we 
        do a far better job of educating each one of our sons 
        and daughters. We will not be able to keep the American 
        promise of equal opportunity if we fail to provide a 
        world-class education to every child.''

    Those are very fine words, and I could not agree more. 
Right now, we have an opportunity to shape our educational 
system to do what is right for every child in this country.
    When we passed the original ESEA in 1965, it was based, in 
part, on the principles of civil rights and equity for all. At 
that time, although the U.S. Supreme Court had integrated the 
schools 11 years earlier in 1954, extreme inequalities still 
existed between affluent suburban schools on the one hand and 
low-performing schools in many urban and rural districts on the 
other. Unfortunately, more than 55 years after ESEA's initial 
passage, these inequities persist.
    For its flaws, No Child Left Behind has done an excellent 
job of shining a light on the achievement gaps that still 
exist, and this is something that we want to preserve--shining 
that light. However, there is still a lot of work to do to 
close these gaps and to better prepare our children for college 
and careers.
    One thing that needs to be fixed is the way that the 
current law has caused some people to only focus on kids in the 
middle, the ones who might just barely pass or barely fail the 
test. That ignores the kids at the top who might get bored and 
fall behind if they are not challenged. It also writes off the 
kids at the very bottom. We cannot abide by any educational 
system that says there are some kids that can be written off.
    By building on prior reforms and re-envisioning the Federal 
role as it relates to accountability, teachers and leaders, and 
the types of carrots and sticks that are used to push 
innovation and reform, the reform agenda has five overarching 
goals: college- and career-ready students, one; great teachers 
and leaders in every school, two; equity and opportunity for 
all students, three; raising the bar and rewarding excellence, 
four; and promoting innovation and continuous improvement, 
five.
    This is a set of goals that should invite broad bipartisan 
agreement. Those of us sitting at this dais may have different 
ideas on the best way to achieve those goals, but the vision 
laid out by the President has given us a well thought out 
starting point for our deliberations.
    I will take this time, as we reauthorize ESEA, to lay out 
some of my guiding principles as the chairman. Here are some of 
my goals for reauthorization, based upon what I have observed 
and have heard in recent years and having spent 22, 23 years 
now on this committee.
    First, I believe we need to ensure that all students--no 
matter their background, community, family, or ability--have 
equitable access--I emphasize those two words, equitable 
access--to a quality public education.
    Next, we need to reform the accountability structure of No 
Child Left Behind while continuing to focus on the success of 
all students. We should give schools and teachers credit for 
growth and rewards for success, but we must do something about 
schools that are chronically failing large numbers of students.
    Next, we need to ensure that we are offering a well-rounded 
curriculum that prepares students to be engaged citizens who 
understand and appreciate the world around them, but also have 
the academic skills to succeed in college and the workforce. 
Our students must have the best possible teachers and academic 
leaders, and those teachers, principals, and superintendents 
should have the support they need to do their jobs with 
excellence.
    Next, we must safeguard the rights of students with 
disabilities and ensure that they have every opportunity to 
succeed academically.
    Next, we must make sure that we are focusing on all the 
needs of America's students, all the needs, including their 
need for good health, nutrition, and physical fitness.
    And finally, we need to ensure that the policies we write 
into law are flexible enough to meet the needs of diverse 
students and schools, including rural schools, but consistent 
enough to ensure high standards for all students.
    I have some policy ideas about how we can achieve those 
goals. For example, we need to bite the bullet and get beyond 
our outdated, 19th century agrarian school calendar, giving 
adequate time for students to have a well-rounded education by 
extending the school day and the school year. We also need to 
recognize that education begins at birth, and children need a 
solid foundation for learning before they ever get to 
kindergarten.
    Without these and other changes, we cannot hope to be 
successful in the 21st century.
    As the chairman of the Senate HELP Committee, I look 
forward to working with the President, the Secretary, and my 
congressional colleagues on both sides of the aisle to write an 
education law that maintains our focus on the success of all 
students, while giving States and districts the support they 
need to succeed.
    With that, I will turn it over to our Ranking Member, 
Senator Enzi, for his opening statement. Then I will introduce 
our witness.

                       Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    Mr. Secretary, thank you for being with us today to discuss 
the Blueprint for Reform for the reauthorization of the 
Elementary and Secondary Education Act, or ESEA. This blueprint 
will help the committee move forward to develop legislation 
that builds upon what we have learned from the latest version 
of ESEA, called No Child Left Behind, and fix what isn't 
working.
    In 2001, when No Child Left Behind was enacted, legislators 
from both sides of the aisle saw little, if any, return on 
investment in K through 12 education, despite over 35 years of 
Federal funding. Many felt that a strong Federal hand was 
called for because States and local school districts were not 
getting the job done. There was little flexibility given to the 
States or school districts in how they implemented the 
requirements of No Child Left Behind.
    So fast forward to today. What we have learned is that a 
better balance is needed between prescriptive Federal mandates 
and State and local flexibility. The blueprint seems to reflect 
this belief with the Administration's ``tight on goals, loose 
on means'' philosophy.
    Overall, the blueprint contains a lot for us to think about 
and use as we deliberate how to be sure our investment makes a 
difference in the education our children receive. I want to 
mention just a few issues today, but I believe this is just the 
beginning of an extended conversation.
    As we work through the reauthorization of ESEA, I will be 
paying close attention to the impact of the changes we make on 
rural schools, districts, and rural States. No Child Left 
Behind has been criticized for being a one-size-fits-all law, a 
claim that has rung especially true in the rural areas.
    I appreciate the blueprint tries to recognize the unique 
nature of rural schools and districts. However, despite these 
good efforts, I believe additional adjustments will likely be 
needed.
    One thing I have heard consistently from teachers, 
principals, superintendents, and parents across Wyoming is the 
need to utilize a growth model in accountability systems. I 
believe that student academic growth measurements can be used 
for accountability and as part of what States consider as they 
develop teacher effectiveness metrics.
    The Federal Government's role should be to encourage and 
support States and school districts so that more students 
graduate from high school on time and with the knowledge and 
skills they need to attend college and enter the workforce 
without the need for remediation. This is a critical goal as 
economic growth depends on an educated and skilled workforce.
    Secretary Duncan, thank you for appearing before the 
committee today to discuss your ideas for the reauthorization 
of ESEA. I am anxious to listen to the dialogue today and look 
forward to working with you to fix the law to make it work 
better for superintendents, principals, teachers, parents, and 
especially the students.
    Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Enzi.
    The Honorable Arne Duncan is the U.S. Secretary of 
Education, confirmed by the U.S. Senate on Inauguration Day, 
January 20, 2009. I was pleased that the first time I chaired 
this committee was to confirm his nomination.
    Prior to his appointment as Secretary of Education, Mr. 
Duncan served as the chief executive officer of the Chicago 
Public Schools from 2001 to 2008, where, during his tenure, a 
record high number of elementary school students met or 
exceeded the State standards in math and reading.
    Also during his tenure, ACT scores for Chicago Public 
School students rose at three times the national rate. These 
are among the many successes that led to Mr. Duncan's becoming 
the longest-serving big-city education superintendent in the 
country.
    Mr. Secretary, we are pleased to welcome you back again 
today as a partner in our effort to reauthorize the Elementary 
and Secondary Education Act. Thank you for joining us, and we 
look forward to your statement and the question-answer period 
outlining the blueprint that you sent out just 2 days ago.
    Welcome back, Mr. Secretary.

    STATEMENT OF HON. ARNE DUNCAN, SECRETARY OF EDUCATION, 
            DEPARTMENT OF EDUCATION, WASHINGTON, DC

    Secretary Duncan. Thank you so much, Mr. Chairman, Senator 
Enzi, and members of the committee. It is a true honor to be 
here with you today.
    I want to thank each of you for your hard work and 
commitment in education. As I was looking around the room, I 
have been able to visit schools with almost all of you in your 
States and see firsthand that remarkable commitment.
    I believe that education is the one true path out of 
poverty. It has to be the great equalizer in our society. As 
the President said in his weekly address on Saturday, there are 
few issues that speak more directly to the long-term prosperity 
of our Nation than education. Education is the one issue that 
must rise above politics and ideology. We can all agree that we 
have to educate our way to a better economy.
    We currently have an unprecedented opportunity to reform 
our Nation's schools so that they are preparing all our 
students for success in college and careers. Today, the status 
quo clearly is not good enough. Consider just a few statistics.
    Twenty-seven percent of America's young people drop out of 
high school. That means 1.2 million teenagers are leaving our 
schools for the streets. That is economically unsustainable and 
morally unacceptable.
    On a recent international test of math literacy, our 15-
year-olds scored 24th out of 29 developed nations. In science, 
15-year-olds ranked 17th out of 29 countries.
    Just 40 percent of our Nation's young people earn a 2-year 
or 4-year college degree. The United States now ranks 10th in 
the world in the rate of college completion for 25- to 34-year-
olds. A generation ago, we led the world, but we are falling 
behind. The global achievement gap is growing. If we are 
serious about preparing our Nation's young people to compete in 
a global economy, we must do better than this.
    Through the American Recovery and Reinvestment Act, we have 
built the foundation for reform. All States are reporting the 
progress they are making on four areas of reform--raising 
standards, developing and recruiting excellent teachers and 
leaders, using data to inform instruction, and turning around 
our lowest-performing schools.
    In the Race to the Top fund, we have identified 16 
finalists for the first phase. We have invited all of the 
finalists to present about their plans and will be announcing 
the winners in the first week of April. The winners will blaze 
the trail on reforms that will improve student achievement for 
decades to come.
    To promote reforms in every State, I am committed to 
working with you in 2010 to reauthorize the Elementary and 
Secondary Education Act. It has been more than 8 years since 
Congress last reauthorized ESEA through the No Child Left 
Behind Act. That is the longest gap between reauthorizations in 
the 45-year history of ESEA.
    We all recognize that NCLB has its flaws. The time to fix 
those problems is now. My staff and I have reached out to 
listen and learn from people across the country and to hear 
what they think about NCLB.
    My senior staff and I visited every State on our 
``Listening and Learning Tour.'' We met with parents, teachers, 
and students themselves. We have engaged in hundreds of 
conversations with stakeholders representing all sections of 
the education community.
    In all of our conversations, we heard a consistent message 
that our schools aren't expecting enough of our students. We 
need to raise our standards so that all students are graduating 
prepared to succeed in college and in the workplace.
    We have also heard that people aren't looking to Washington 
for all the answers. They don't want us to provide a 
prescription for success. Our role should be to offer a 
meaningful definition of success, one that raises the bar and 
shows teachers and students what they should be striving for.
    With those lessons in our mind, we have developed our 
blueprint for ESEA reauthorization. We have shared that with 
you, Mr. Chairman, and I ask that the blueprint be entered into 
the record of this hearing.
    [The Blueprint for Reform referred to above may be found at 
http://www2.ed.gov/policy/edsec/leg/blueprint/.]
    In this blueprint, you will see that everything is 
organized around our three major goals for reauthorization--
first, raising standards; second, rewarding excellence and, as 
both of you have mentioned, focusing on growth and gain; and 
third, increasing local control and flexibility while 
maintaining a laser-like focus on equity and on closing 
achievement gaps.
    All of these policy changes will support our effort to meet 
the President's goal that by 2020, America will once again lead 
the world in college completion. In particular, the ESEA will 
set a goal that by 2020, all students will graduate ready to 
succeed in college and in the workplace. We will build an 
accountability system that measures the progress that States 
and districts and schools are making toward meeting that goal.
    We have a comprehensive agenda to help us meet that goal. 
It starts with asking States to adopt standards that truly 
prepare students for success in college and careers. Governors 
and State school chief officers of 48 States are doing the 
tough job of setting these standards in reading and in math. 
The leadership at the local level has been absolutely 
remarkable, and their effort is supported by both major 
teachers unions and by the business community.
    In our proposal, we call on States to adopt college- and 
career-ready standards, either working with other States or by 
getting their higher education institutions to certify the 
standards are rigorous enough to ensure students graduate ready 
to succeed in college-level classes or to enter the workplace.
    Standards by themselves aren't enough. We will need a new 
generation of assessments that measure whether students are on 
track for success in college and careers. We will also support 
the effort to develop those assessments so they will measure 
higher-order skills, provide accurate measures of student 
progress, and give teachers the information they need to 
improve student achievement and differentiate instruction. 
These standards and assessments are key parts of our effort to 
redefine accountability.
    Under NCLB, the Federal Government greatly expanded its 
role in holding schools accountable. It did several things 
right, and I will always give NCLB credit for its important 
contributions to education reform. It required all students to 
be included in the accountability system, including minority 
students, students with disabilities, and English language 
learners. It required States, districts, and schools to report 
test scores disaggregated by student subgroups, exposing 
achievement gaps like never before. We know the achievement gap 
is unacceptably large, and teachers and school leaders 
throughout the country are working and mobilizing to address 
that problem.
    NCLB was right to create a system based on results for 
students, not just on inputs. NCLB's accountability system 
needs to be fixed, and it needs to be fixed now. There are far 
too many perverse incentives in the current law. It allows, and 
it actually even encourages, States to lower standards. It 
doesn't measure growth. It doesn't reward excellence.
    It prescribes the same interventions for schools with very, 
very different needs. It encourages a narrowing of the 
curriculum and focuses on test preparation. It labels too many 
schools with the same ``failing'' label, regardless of their 
challenges.
    It encourages schools to focus their efforts, Mr. Chairman, 
as you said, on only that tiny percent of students close to 
that proficiency bar and neglect the vast majority of students 
either above or below that line. We need all adults focused on 
every single child, not just that small handful in a classroom 
or in a school close to that bar.
    We can't sustain momentum for reform if we don't have a 
credible accountability system that addresses these issues. Our 
proposal will make significant improvements on accountability. 
The biggest and most important one is that it will use student 
academic growth as the most important measure of whether 
schools and districts and States are making progress. I am much 
more interested in growth and gain than in absolute test 
scores, as long as students are on a path to meet standards.
    Under our plan, we will reward schools, districts, and 
States that are making the most progress. At the same time, we 
will be tough-minded in our lowest-performing schools and 
schools of large achievement gaps that aren't closing. All 
other schools will be given flexibility to meet performance 
targets working under their State and local accountability 
systems. If we get accountability right, we will provide the 
right incentives to increase student achievement, and I am 
confident that America's students, teachers, and principals 
will deliver.
    I would like to focus on the critically important work of 
our teachers and our leaders. The teaching and learning that 
happens in schools every single day are what drives American 
education.
    We spend a lot of time talking about reform--about the 
proper Federal role, about the cost of education and the need 
for more funding, about competitive versus formula--and all 
those are absolutely important debates to have. We can never, 
never lose sight of the impact our decisions have on classrooms 
where teachers are doing the hard work every day of helping our 
children learn. Every decision must be viewed through the 
framework of improving instruction for our Nation's children.
    We believe that there is a lot in our proposal that 
teachers will like. We know that there is a lot under the 
current law that teachers don't like. We heard that in every 
State we visited.
    Most teachers believe that we have a broken system of 
accountability. Many teachers believe their evaluation and 
support systems are flawed. We need a system of accountability 
that is fair. I have never met a teacher yet who is afraid of 
accountability. All they ask for is a system that measures each 
child's progress, not this year's students against last year's 
students. We need better evaluation systems that are honest and 
useful and elevates, rather than diminishes, the teaching 
profession.
    All told, we are requesting a record $3.9 billion to 
strengthen the teaching profession, an increase of $350 
million. We begin with the understanding that teaching is some 
of the toughest and most important work in society, and we are 
deeply committed to making it a better profession for teachers.
    To start with, we are encouraging the development of high-
quality teacher preparation programs. Today, too many teachers 
tell us that they are underprepared for what they face in the 
classroom. They have too much to learn on the job.
    We are encouraging the development of meaningful career 
ladders and stronger efforts to retain the great teachers we 
have. We lose far too many great young teachers due to a lack 
of support. From newly hired teachers to tenured teachers to 
master teachers, and mentors, department heads, and principals, 
we need to rebuild education as a profession with real 
opportunities for growth that sustain a teacher's craft over a 
career, not just for a couple of years.
    We want to encourage schools and districts to rethink how 
teachers can best do their jobs--how they collaborate, how they 
use their time outside the classroom, and how they shape 
professional development programs. When adults have time to 
collaborate and solve school problems together, they are going 
to be much more productive, and they will get better results 
for our children. Teachers must be at the center of those 
efforts.
    We are also investing in principals to create better 
instructional leaders, so that teachers have the leadership 
they need to do better work. Historically, we think our 
department has significantly underinvested in principal 
leadership, and we are looking to have a five-fold increase in 
that funding. I think there are no good schools in this country 
without good principals. We know great principals attract and 
retain good talent. We know bad principals run off good talent. 
So principal leadership is huge for us.
    As for teacher evaluation systems, our goal is a system 
that is fair, honest, and useful, and built around a definition 
of teacher effectiveness, developed with teachers, that 
includes multiple measures, never just a single test score. 
Teachers need great principals for support, and we will also 
ask for fair evaluation systems for principals.
    We want to use these systems to support teachers in their 
instructional practice and to reward great teachers for all 
they do, including advancing student learning. We also want to 
reward them for working in high-need schools. If we are serious 
about finally closing the achievement gap, we must close the 
opportunity gap far too many of our children face.
    As I mentioned, we will change the accountability system to 
make it fairer. For the first time, we will be holding not just 
schools and teachers accountable for student success, but 
districts and States as well. This must be a shared 
responsibility. Teachers can't teach and principals can't lead 
when they are not well supported at the local and State level.
    We want to stop mislabeling thousands of schools as 
failures. Instead, we want to challenge them to close 
achievement gaps with targeted strategies designed by teachers 
and principals together.
    Similarly, everyone should get credit for helping students 
who are behind catch up, even if they do not yet meet 
standards, as long as they are on the path to get there. A 
sixth grade teacher whose students start the year three grade 
levels behind and their students advance by two grade levels 
should be applauded, not labeled as a failure.
    That teacher is not a failure. That teacher is not just a 
good teacher. That teacher is a great teacher. She is 
accelerating student learning, and we must learn from her 
example, not stigmatize her. The same is true for districts and 
States as well.
    We want to give many more schools and districts the 
flexibility to improve by focusing much more on the chronically 
lowest performing schools and those with the largest 
achievement gaps that aren't closing, while giving teachers and 
principals of the other schools more flexibility and incentive 
to succeed.
    We are also calling for assessments that measure deep 
learning, not just test-taking skills--assessments that can 
engage and encourage learning and provide teachers with 
meaningful, quick feedback.
    We want students, parents, teachers, and communities 
working toward a meaningful bar, and to support them in getting 
there. The goal of the K to 12 system has to be to prepare 
students for the next step on their journey, either college or 
in a good career. The system needs to be focused on those 
goals. Dumbed-down standards mean we are actually lying to 
children, giving them false hope and undermining the high 
standards that teachers have for their students. That must end.
    We are calling for over $1 billion to fund a complete 
education because a whole child will be a successful adult. We 
want schools investing in the arts, history, sciences, 
languages, physical education, and all of the learning 
experiences that contribute to a well-rounded education. That 
is critically important.
    Finally, we are also seeking $1.8 billion to support 
students by encouraging community engagement and support and 
exposure to other positive adults. Teachers cannot do it alone. 
They need parents, community leaders, social service agencies, 
and other supportive adults in the schools helping to reinforce 
a culture of learning and respect. A parent will always be a 
child's first teacher and will always be that child's most 
important teacher.
    Thank you so much for the opportunity to discuss our 
comprehensive reform of ESEA. This will be one of the most 
dramatic changes in the law's history. It will fundamentally 
change the role, the Federal role in education. We will move 
from being a compliance monitor to being an engine of 
innovation.
    The urgency for these reforms has never been greater. Our 
children and our future are at risk. Let us together do the 
difficult, but necessary things our schools demand and our 
children deserve. We know that schools can transform the lives 
of children. We have literally thousands of examples of schools 
serving high-poverty populations that are accelerating student 
achievement. We need to reward them and hold them up as 
examples for others to follow.
    I thank you for all that you have done and all you will do 
to make education America's highest priority and greatest 
legacy. We need to work together to continue that legacy and 
deliver a world-class education for every child.
    Thank you so much.
    [The prepared statement of Secretary Duncan follows:]
                   Prepared Statement of Arne Duncan
    Thank you Chairman Harkin, Senator Enzi, and members of the 
committee. It's an honor to be here today.
    I want to thank each of you for your hard work on education. I 
believe that education is the one true path out of poverty. It is the 
great equalizer in our society. As the President said in his weekly 
address on Saturday, there are few issues that speak more directly to 
the long-term prosperity of our Nation than education. Education is one 
issue that can rise above ideology and politics. We can all agree that 
we need to educate our way to a better economy.
    We currently have an unprecedented opportunity to reform our 
Nation's schools so they are preparing all of our students for success 
in college and careers.
    Today, the status quo clearly isn't good enough. Consider the 
following statistics:

    <bullet>  27 percent of America's young people drop out of high 
school. That means 1.2 million teenagers are leaving our schools for 
the streets.
    <bullet>  On a recent international test of math literacy, our 15-
year-olds scored 24th out of 29 developed Nations. In science, our 15-
year-olds ranked 17th out of 29 developed countries.
    <bullet>  And just 40 percent of young people earn a 2-year or 4-
year college degree.
    <bullet>  The United States now ranks 10th in the world in the rate 
of college completion for 25- to 34-year-olds. A generation ago, we 
were first in the world but we're falling behind. The global 
achievement gap is growing.

    Through the American Recovery and Reinvestment Act, we have built 
the foundation for reform. All States are reporting the progress 
they're making on four areas of reform: raising standards, developing 
and recruiting excellent teachers and leaders, using data to inform 
instruction, and turning around our lowest-performing schools. In the 
Race to the Top fund, we have identified 16 finalists for the first 
phase. We've invited all of the finalists to present about their plans 
and will be announcing the winners in the first week of April. The 
winners will blaze the trail on reforms that will improve student 
achievement for decades to come.
    To promote reforms in every State, I am committed to working with 
you in 2010 to reauthorize the Elementary and Secondary Education Act. 
It's been more than 8 years since Congress last reauthorized ESEA 
through the No Child Left Behind Act. That's the longest gap between 
reauthorizations in the 45-year history of ESEA. We all recognize that 
NCLB has its flaws. The time to fix those problems is now.
    My staff and I have reached out to listen and learn from people 
across the country, and to hear what they think about NCLB. My senior 
staff and I visited every State on our Listening and Learning Tour. We 
met with parents, teachers, and students themselves. We've engaged in 
conversations with stakeholders representing all sections of the 
education community.
    In all of our conversations, we've heard a consistent message that 
our schools aren't expecting enough of students. We need to raise our 
standards so that all students are graduating prepared to succeed in 
college and the workplace. We've also heard that people aren't looking 
to Washington for answers. They don't want us to provide a prescription 
for success. Our role should be to offer a meaningful definition of 
success--one that shows teachers and students what they should be 
striving for.
    With those lessons in our mind, we have developed our Blueprint for 
ESEA reauthorization. We have shared that with you, Mr. Chairman, I ask 
that the Blueprint be entered into the record of this hearing. In this 
Blueprint, you'll see that everything is organized around our three 
major goals for reauthorization.

    1. Raise standards.
    2. Reward excellence and growth.
    3. Increase local control and flexibility while maintaining the 
focus on equity and closing achievement gaps.

    All of these policy changes will support our effort to meet the 
President's goal that by 2020, America once again will lead the world 
in college completion. In particular, the ESEA will set a goal that by 
2020 all students will graduate ready to succeed in college and the 
workplace. We will build an accountability system that measures the 
progress that States, districts, and schools are making toward meeting 
that goal.
    We have a comprehensive agenda to help us meet that goal. It starts 
with asking States to adopt standards that prepare students for success 
in college and careers. Governors and chief State school officers of 48 
States are doing the tough job of setting these standards in reading 
and math. In our proposal, we call on States to adopt college and 
career ready standards--either working with other States or by getting 
their higher education institutions to certify the standards are 
rigorous enough to ensure students graduate ready to succeed in 
college-level classes or enter the workplace.
    But standards aren't enough. We'll need a new generation of 
assessments that measure whether students are on track for success in 
college and careers. We will support the effort to develop those tests 
so they will measure higher-order skills, provide accurate measures of 
student progress, and give teachers the information they need to 
improve student achievement.
    These standards and assessments are key parts of our effort to 
redefine accountability.
    Under NCLB, the Federal Government greatly expanded its role in 
holding schools accountable. It did several things right--and I'll 
always give NCLB credit for its important contributions to education 
reform. It required all students be included in the accountability 
system--including minority students, students with disabilities, and 
English learners--and held schools, districts and States accountable 
for educating all of their students. It required States, districts and 
schools to report test scores disaggregated by student subgroups, 
exposing achievement gaps like never before. We know the achievement 
gap is unacceptably large--and teachers and school leaders throughout 
the country are working and mobilizing to address that problem. NCLB 
was right to create a system based on results for students, not just on 
inputs.
    But NCLB's accountability system needs to be fixed--now. It 
allows--even encourages--States to lower standards. It doesn't measure 
growth or reward excellence. It prescribes the same interventions for 
schools with very different needs. It encourages a narrowing of the 
curriculum and focuses on test preparation. It labels too many schools 
with the same ``failing'' label regardless of their challenges. We 
can't sustain momentum for reform if we don't have a credible 
accountability system that addresses these issues.
    Our proposal will make significant improvements on accountability. 
The biggest and most important one is that it will use student academic 
growth as the most important measure of whether schools, districts, and 
States are making progress. I'm more interested in growth than absolute 
test scores, as long as students are on a path to meet standards.
    Under our plan, we will reward schools that are making the most 
progress. At the same time, we will be tough-minded in our lowest-
performing schools and schools with large achievement gaps that aren't 
closing. All other schools will be given flexibility to meet 
performance targets working under their State and local accountability 
systems. If we get accountability right, we'll provide the right 
incentives to increase student achievement and I'm confident America's 
teachers and principals will deliver.
    I would like to focus on the important work of teachers and 
leaders. The teaching and learning that happens in schools every day 
are what drives American education. We spend a lot of time talking 
about reform--about the proper Federal role--about the cost of 
education and the need for more funding--about competitive versus 
formula--and those are all important debates to have.
    But we can never lose sight of the impact our decisions have in 
classrooms where teachers are doing the hard work every day of helping 
our children learn.
    We believe there is a lot in our proposal that teachers will like. 
We know that there is a lot under current law that teachers don't like. 
Most teachers believe that we have a broken system of accountability. 
Many teachers believe their evaluation and support systems are flawed. 
We need a system of accountability that is fair. We need better 
evaluation systems that are honest and useful and elevates rather than 
diminishes the teaching profession.
    All told, we are requesting a record $3.9 billion to strengthen the 
teaching profession--an increase of $350 million. We begin with the 
understanding that teaching is some of the toughest and most important 
work in society and we are deeply committed to making it a better 
profession for teachers. To start with:

    <bullet> We are encouraging the development of high quality teacher 
preparation programs. Today, many teachers tell me they are 
underprepared for what they face in the classroom. They have to learn 
on the job.
    <bullet> We are encouraging the development of meaningful career 
ladders and stronger efforts to retain the great teachers we have. From 
newly-hired teachers to tenured teachers to master teachers, mentors, 
department heads and principals--we need to rebuild education as a 
profession with real opportunities for growth that sustain a teacher's 
craft over a career, not just a couple of years.
    <bullet> We want to encourage schools and districts to rethink how 
teachers do their jobs--how they collaborate, how they use their time 
outside the classroom and how they shape professional development 
programs. When adults have time to collaborate and solve school 
problems they are going to be more productive and they will get better 
results for our kids. Teachers need to be at the center of those 
efforts.
    <bullet> We are also investing in principals to create better 
instructional leaders, so that teachers have the leadership they need 
to do better work.
    <bullet> As for teacher evaluation systems, our goal is a system 
that is fair, honest and useful--and built around a definition of 
teacher effectiveness, developed with teachers, that includes multiple 
measures--not just a single test score. Teachers need great principals 
for support, and we will also ask for fair evaluation systems for 
principals.
    <bullet> We want to use these systems to support teachers in their 
instructional practice and to reward great teachers for all they do--
including advancing student learning. We also want to reward them for 
working in high-need schools.
    <bullet> As I mentioned, we will change the accountability system 
to make it fairer. We will start by holding not just schools and 
teachers accountable for student success, but districts and States, as 
well. Teachers can't teach and principals can't lead when they are not 
well supported at the local and State level.
    <bullet> We want to stop mislabeling thousands of schools as 
failures. Instead we want to challenge them to close achievement gaps 
with targeted strategies designed by teachers and principals together.
    <bullet> Similarly, everyone should get credit for helping students 
who are way behind catch-up, even if they do not yet meet standards--as 
long as they are on a path to get there. A teacher whose students start 
the year three grades behind and their students advance by two grade 
levels should be applauded--not labeled as a failure. That includes 
districts, principals and teachers. This is a shared responsibility.
    <bullet> We want to give many more schools and districts the 
flexibility to improve by focusing much more on the lowest-performing 
schools and those with the largest achievement gaps that aren't 
closing, while giving teachers and principals of the other schools more 
flexibility and incentives to succeed.
    <bullet> We are also calling for assessments that measure deep 
learning, not test-taking skills--assessments that can engage and 
encourage learning, and provide teachers with meaningful, quick 
feedback.
    <bullet> And we want students, parents, teachers, and communities 
working toward a meaningful bar, and to support them in getting these. 
The goal of the K-12 system has to be to prepare students for the next 
step--college and a career. The system needs to be focused on that 
goal. Dumbed-down standards means we are lying to children--giving them 
false hope and undermining the high standards teachers have for their 
students.
    <bullet> We're calling for over $1 billion to fund a complete 
education, because a whole child is a successful adult. We want schools 
investing in the arts, history, science, languages and all of the 
learning experiences that contribute to a well-rounded education.
    <bullet> Finally, we're also seeking $1.8 billion to support 
students by encouraging community engagement and support and exposure 
to other positive adults. Teachers cannot do it alone. They need 
parents, community leaders, social service agencies and other 
supportive adults in the schools helping to reinforce a culture of 
learning and respect. A parent is a child's first teacher.

    Thank you for the opportunity to discuss our comprehensive reform 
of the ESEA. This will be one of the most dramatic changes in the law's 
history. It will fundamentally change the Federal role in education. We 
will move from being a compliance monitor to being an engine for 
innovation.
    The urgency for these reforms has never been greater. Our children 
and our future are at risk, so let us together do the difficult but 
necessary things our schools demand, and our children deserve. We know 
that schools can transform the lives of children. We see examples of 
schools serving high-poverty populations that are accelerating student 
achievement. We need to reward them and hold them up as examples for 
others to follow.
    I thank you for all you have done and all you will do to make 
education America's highest priority and greatest legacy.
    We need to work together to continue that legacy and deliver a 
world-class education for every child.
    Thank you.

    The Chairman. Well, Mr. Secretary, thank you very much for 
a very thought-provoking statement and your leadership. I use 
the word ``provocative'' in its best sense. We need to provoke 
some thinking. We need to provoke new ideas and a new approach.
    And you are right. We have an opportunity this year to make 
a really profound, historic change in elementary and secondary 
education. I also want to repeat what you said. This is an 
issue that rises above politics and partisanship. We have a 
great committee here, and we are going to work together to get 
this job done.
    Now, I am going to recognize Senators for 5-minute rounds. 
I know some Senators have meetings they have to go to, and 
because of the vote, everything is backed up a little here.
    I will defer my questions and recognize Senator Dodd, 
again, someone who has been one of our champions, one of our 
leaders all the time that we have been here, going back 25, 
almost 30 years on education, on child care, families--anything 
dealing with the development of the child has Chris Dodd's 
fingerprints on it.
    Senator Dodd.

                       Statement of Senator Dodd

    Senator Dodd. Well, thank you, Mr. Chairman. I apologize to 
my colleagues. I have different meetings coming along.
    Mr. Secretary, thank you. We are very excited about your 
stewardship at the Department of Education. As the chairman 
pointed out in his introductory remarks, you bring a wealth of 
experience and background to this position. It has already been 
exciting to talk with you.
    We have had numerous conversations about the 
reauthorization of the Elementary and Secondary Education Act, 
and I thank Tom Harkin for his leadership on this issue as 
well. We have members of this committee that have dedicated 
parts of their lives to exactly the jobs that you have been 
involved in.
    I am going to ask consent, Mr. Chairman, that some opening 
comments be included in the record.
    And then just quickly ask, if I can, to give the time, 
really, for you to respond, Arne. I am going to be following 
three principles as I look at fixing No Child Left Behind as we 
move forward.
    The first is the question of involvement of far more people 
in the development of education. This is everyone's job. As we 
talked about the other day, I'll begin with parents. We pointed 
out earlier with Head Start programs, that we have a 
requirement for programs to encourage parental involvement. We 
know that parental involvement drops, as children get older, 
from 33 percent in first grade to less than 8 percent by the 
seventh grade.
    While it is not the only answer, I think we need to start a 
conversation always with the fact that, first, learning begins 
at home with parents and families. And to the extent we can 
provide that kind of support is critical, and then, obviously, 
the larger context of accountability, principals, 
superintendents, the communities-at-large, and everyone 
involved in this job of educating our children.
    Second, is to get rid of the notion somehow that we 
identify failing institutions--and you have addressed this--and 
let us start talking about rewarding success because there is a 
lot of success in this country. In schools every single day, 
people do remarkable jobs, and obviously, the media's job is 
not to report about planes that fly. Obviously, the attention 
focuses on those that are struggling or failing in too many 
instances. I am not suggesting we disregard that, but I think 
if we spent some more time talking about success, we might do a 
better job of actually succeeding where institutions are not 
doing as well as they should.
    And third, is getting rid of the notion that a test score 
constitutes an education. We have all heard over and over again 
over the last several years that measuring growth models here, 
rather than test scores, is obviously the way that will, I 
think, give us better results, maximizing a child's potential. 
That ought to be the determination of success, whether or not 
the potential of that child is being reached or not. And not 
whether or not someone scored more or a higher mark on a test 
score some place. It seems we need to get rid of that.
    I would like you just to address, if you could quickly, in 
the remaining 3 or 4 minutes here those three points--the 
involvement of everyone in education, the idea that, obviously, 
we need to reward success, and the notion of a test score as a 
judgment of whether or not education is succeeding.
    [The prepared statement of Senator Dodd follows:]

                   Prepared Statement of Senator Dodd

    I'd like to thank Secretary Duncan for joining us today, 
and for his leadership as the Obama administration follows 
through on its commitment to American education.
    We need to reform ESEA this year, and the administration's 
proposal serves as a useful first step, giving stakeholders 
something to consider and respond to as we move forward.
    As I've said before, no education policy--not No Child Left 
Behind and not any of the proposed reforms--will work without 
adequate funding. And I want to commend you and the 
Administration for your commitment to providing our schools 
with the resources they need.
    My time here is limited, but I wanted to take a moment to 
lay out three principles that will guide me through this 
process, and that I believe must guide all of our education 
reform efforts.
    First, we need to make education everybody's job. Parents, 
students, teachers, school administrators, local officials, 
civic leaders, and the government all have a stake in the 
success of our schools. That means they all have a role to 
play, and they all must work together.
    And, while I have sincere confidence in your leadership, 
Mr. Secretary, I urge you to continue to bring the education 
community to the table as part of this debate.
    Second, while our system needs accountability, our goal 
shouldn't be to punish shortcomings but to encourage success. 
Every American child has the potential to excel. We need to 
equip schools with the tools and flexibility necessary to help 
each child reach that potential. And to those whom we assign 
responsibility, we must also grant authority. We have to let 
educators do their jobs.
    Third, we need to disabuse ourselves of the notion that a 
test score constitutes an education. Our kids need rigorous 
training in the fundamentals--but a real education prepares 
kids for a wide range of opportunities and requires a well-
rounded approach, both to the curriculum and to the way we 
measure success.
    I look forward to our discussion and thank you, again, for 
joining us today.
    Secretary Duncan. Really thoughtful questions and comments, 
and I agree with every point you made, that we have to engage 
parents. It is interesting to me that so often we talk about 
parental involvement. We talk about it with our young children, 
our 3- and 4- and 5-year-olds.
    I will tell you one of the most troubling things that we 
have found in the Chicago Public Schools. We surveyed our 
teenagers, our high school students, and the biggest thing they 
were asking for is for more parental involvement. We have to 
think about not just those early years, but what are our 
parents doing for our 14- and 15- and 16-year-olds to stay 
involved and engaged in their lives? And teenagers, rather than 
looking for more freedom and flexibility, were actually 
literally asking for parents to be more involved.
    And again, there are great programs out there. We want to 
learn from them, reward those, and continue to spread that.
    We have a couple major buckets that we are focused on. One 
is called student supports. We have $1.8 billion in there, a 
$245 million increase. That is afterschool programs. That is 
extended day and year programs. That is a series of things we 
are going to do around safe and healthy students.
    It is $210 million to build upon Geoffrey Canada's work in 
the Harlem Children's Zone, recognizing that when schools are 
islands in the community, when the whole community isn't 
supporting that school, that job is very, very tough for the 
adults, and it is demoralizing for the students. When entire 
communities rally behind a school, great things can happen. We 
are trying to absolutely invest in those places that have 
demonstrated a community-wide commitment, and a chance to 
replicate the Harlem Children's Zone through our Promise 
Neighborhoods initiative we think is very exciting.
    On your second point, we have so many extraordinary 
teachers, extraordinary schools, extraordinary school districts 
in States that are beating the odds every single day. Despite 
huge poverty, despite a lack of funds, remarkable work is going 
on. Not just one Herculean teacher, one phenomenal student, but 
year after year, class after class, people are beating the 
odds.
    We have to recognize it. More importantly, we have to learn 
from it. We don't have to come up with any great ideas here in 
Washington. I always say the great ideas are always out there. 
Great local educators are leading the way for us. We haven't 
captured that knowledge. We haven't shared it. We haven't built 
upon it.
    We haven't replicated it, and that is the entire focus of 
what we want to do. We want to put these scarce resources we 
have behind those places that are making a difference and 
taking it to scale. What I worry about so much, Senator, is 
there are so many great programs that are making a difference 
in 200 students' lives, but due to a lack of resources, they 
can't go to scale, or they are making a difference in 500 and 
can't go to scale.
    We want to help those places that are demonstrating the 
ability to raise the bar for all children and close the 
achievement gap. We want to put a lot of resources behind them 
and have the country learn from what they are doing.
    And finally, this is all about growth. I just keep going 
back to that example. That teacher that takes a child 3 years 
behind and leaves her classroom a year behind, that is not a 
bad teacher. That is a phenomenal teacher. That child had 2 
years' growth for a year's instruction.
    We need to shine a spotlight on that. We need to learn from 
it at the teacher level, at the grade level, at the school 
level, at the district level, at the State level, where we are 
accelerating the rate of student achievement, and it is 
happening all over our country. That is what this game is 
about.
    The Chairman. Thank you, Senator Dodd.
    Senator Enzi.
    Senator Enzi. Thank you, Mr. Chairman.
    I want to thank you, Secretary Duncan, for all the work 
that you have put into reviewing the law, and it is an 
extensive act. The blueprint covers a lot of areas, and we 
won't have time to get into them all today.
    I want to also thank you for coming to Wyoming so you could 
truly see a rural school district. I appreciated the way that 
you listened to the wide variety of people that we had there.
    The blueprint clearly mandates that the States implement 
one of four turnaround options in the lowest 5 percent of all 
schools in the State. As you know, this is a clear departure 
from the history of ESEA. Historically, the Federal Government 
only mandated action in schools that are either receiving or 
eligible to receive Federal title I dollars.
    Could you explain your justification for this vast increase 
in the Federal role in the schools?
    Secretary Duncan. I don't really see it as a vast increase 
in the Federal role. What was said repeatedly is that we had 
the vast majority of schools that are getting better and 
proving to be world-class schools. We want to see that growth.
    But what we are asking the country to do is take a hard 
look at that bottom 5 percent of schools. And in every State, 
in every district, the bottom 5 percent--not the 95 percent. 
And of that bottom 5 percent, just take 1 percent of those a 
year, and let us do something very, very different.
    And where we have schools where 50, 60, 70 percent of 
students are dropping out, where students are falling further 
and further behind each year, unfortunately, what happened 
under No Child Left Behind was nothing. Nothing changed for 
those children.
    We want to see real change and do it with a sense of 
urgency. Where we have an ability to have pretty dramatic 
change and do it with a sense of urgency, not a 10-year plan, 
not a 15-year study, but for children right now, today, that 
need a better opportunity, we want States to start to do that. 
States, districts, teachers, parents, communities working 
together to transform the opportunity structure for those 
children.
    Senator Enzi. I want to switch over a little bit to 
reforming high schools in the country. The blueprint doesn't 
seem to talk about that much. However, high schools are not 
meeting the needs of students, and too many are either dropping 
out of school altogether or graduating students without the 
knowledge and skills necessary to be successful in college and 
the workforce.
    I have heard a lot about and support for career institutes 
or academies and appreciate how they provide the same academic 
content to all students but deliver it in ways that are 
relevant to the students. Do you support a federally funded 
high school reform program, and if so, would you envision 
maintaining the Administration's ``tight on goals, loose on 
means'' philosophy?
    Secretary Duncan. Yes. All of these initiatives are, sort 
of, big buckets of work around innovation, around teachers and 
leaders, around a well-rounded education, supporting students. 
Title I, we are calling college and career ready. Supporting 
diverse learners. All of those have huge high school 
components.
    Whether it is making sure we have STEM educators at the 
high school level. We want to put $100 million in new money to 
make sure that we have more opportunities for students to take 
dual enrollment classes, college-level classes in high school. 
We have $3.5 billion in school improvement grants to turn 
around chronically underperforming schools. Many of those are 
high schools.
    We are trying to put a huge amount of resources to increase 
the quality of instruction, to make sure those courses are more 
rigorous, to make sure students have a chance to experience 
that college experience while they are still in high school. 
All of our efforts, all of our buckets of work have significant 
high school pieces to it.
    Senator Enzi. I am also concerned about the potential 
impact the legislation has on rural schools, school districts, 
and States, and particularly the turnaround models that are 
detailed in the blueprint as they seem to be urban-centered. 
Many of the rural school districts aren't able to implement, I 
don't think, any of the four models because it is difficult to 
replace a principal, fire half the staff, close the school, or 
convert the school to a charter school when the next closest 
school is over 60 miles away.
    I appreciate the need to reform schools that have not 
provided an excellent education, but I think there are limited 
options that may not work in many areas of Wyoming. Are there 
other options or flexibility that would be provided to those 
rural areas?
    Secretary Duncan. Absolutely. One of the models is a 
transformation model, which is simply working with existing 
staff, trying to make sure they are having the quality time 
they need to collaborate, making sure we are lengthening school 
days where we need to. We think that model could be applicable 
in an urban area or suburban or rural.
    I am happy to continue that conversation with you. There 
are multiple models, and we think every community can figure 
out what the right fit is for their children and their 
neighborhood.
    Senator Enzi. OK. As a last question, I did ask in a letter 
that was dated January 25th about some contact information, the 
subject of which was the student loan program and the 
elimination of the FFEL program. I haven't gotten any answer to 
that yet. Do you have any idea on how soon I will get that?
    Secretary Duncan. I think you have received that.
    Senator Enzi. Pardon?
    Secretary Duncan. You should have received that. We sent 
that last week.
    Senator Enzi. OK. I will check. Yes.
    Thank you very much. My time has expired.
    The Chairman. Thank you, Senator Enzi.
    I will have more to say about rural schools, since there 
were six of us in my eighth grade class, anyway, in my rural 
school. But technology, I want to get technology and high-speed 
connections to a lot of those rural schools, which can be very 
helpful. I am going to forego that question for now.
    Senator Reed, I know, has to go to another meeting, so I 
will recognize Senator Reed.

                       Statement of Senator Reed

    Senator Reed. Thank you, Mr. Chairman. It is good to know 
that you were in the top 10 of your class.
    [Laughter.]
    You have important responsibilities. That is a good sign.
    Mr. Secretary, I understand that--and you talked about 
engagement of parents and community, which I think we all 
recognize is essential. As I understand it, only the 
transformation model explicitly requires family and community 
engagement. The turnaround model, the closing model, and the 
charter model don't require that explicitly. Is there an 
incongruity here?
    Secretary Duncan. We can check on that. Again, whether it 
is looking at turnaround or high-performing schools, I don't 
know how you have high-performing schools without parental 
engagement, community engagement. That should be a backbone of 
everything we are doing.
    Senator Reed. Would you check that? Because I think that 
the other models are not explicit in requiring parent and 
community engagement.
    Secretary Duncan. Explicit on it, yes.
    Senator Reed. The turnaround model requires the dismissal 
of all the instructional staff. Under your regulations, would 
it require the dismissal of everyone in the school? Could a 
local community do that?
    Secretary Duncan. These would be decisions made at the 
local school level, local community level.
    Senator Reed. Well, but they are doing it under the color 
of Federal law, of your proposal, or at least they will if we 
adopt these proposals. Is it just instructional staff, or is it 
everyone?
    Secretary Duncan. Instructional staff.
    Senator Reed. OK. I think that is something else that you 
might clarify, too, in terms of the scope of dismissals.
    The other aspect of the proposal, not just in terms of the 
authorization that we will consider, but also the appropriation 
of the budget, is a consolidation of many programs. There has 
been a debate for as long as there has been a Congress about 
flexibility and innovation versus accountability, transparency, 
ensuring that we are funding things that, collectively, we 
think are important.
    I think your approach is going to raise these questions 
again. One of the areas has been school libraries. It was an 
exclusive program in the 1965 act. It was eliminated under the 
Reagan administration. As a result, when I got here in 1990, 
you could still find library books on the shelves of most 
schools that said, ``ESEA 1965'' with copyrights dating from 
about 1955 and 1945.
    We began to put more emphasis on it. That was reversed 
under Speaker Gingrich's leadership, among others. Now we are 
back trying to fund libraries. That is just one example. But 
the history of these block grants is that they become so 
amorphous that opponents--not supporters, but opponents find 
ways under the budget pressure to grind them down.
    No. 1, how are you going to ensure that doesn't happen, 
since we all agree this is a major national priority? And No. 
2, as you go forward, I would presume that you are going to try 
to reinforce success, which might mean more resources going to 
successful programs. So how do you do that?
    Secretary Duncan. These are really, really powerful 
questions. The unique opportunity we have--so, yes, we are 
trying to do less things and do them well. We did push for some 
consolidations. We think that it is much easier for our schools 
and districts and States to interact with us because the 
President is asking for historic increase in funding.
    As you know, most times when folks consolidate, they cut 
money. It is sort of an excuse to cut. In every bucket we are 
doing, there are actually increases. In innovation, a big 
increase. Teachers and leaders, a $350 million increase. Well-
rounded education, $100 million increase. Student supports, 
$245 million increase. Right down the line.
    We actually have more resources, not less, if the fiscal 
year 2011 budget passes. All those things that you talked 
about, whether it is libraries, whether it is STEM education, 
whether it is technology, we know we have to invest there. We 
want to invest there. We have more resources than ever before.
    I think that should help us guard against libraries which 
have been dramatically underinvested and that are hugely 
important. Not just school-based libraries, but classroom-based 
libraries, particularly in the primary grades, are very, very 
important. We have an opportunity with increased funding to 
increase resources, not decrease them.
    As we look at the competitive versus formula, that is 
another debate. The bulk of our money, almost three-quarters of 
our money will still be formula-based. We are going to be more 
competitive than before. We are not just going to reward 
excellence. We are going to look to go to places where there is 
great need.
    It is not just about rewarding success so the rich get 
richer and the poor get poorer. We want to use those 
competitive resources in communities that have been 
historically underserved where there is great need, and we are 
going to strike that balance.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Reed.
    Senator Burr.

                       Statement of Senator Burr

    Senator Burr. Mr. Secretary, welcome.
    Secretary Duncan. Thank you, sir.
    Senator Burr. I have a general comment at the beginning. If 
the quality of education is determined by how much we spend, 
Washington, DC would be the best school system in the country. 
I caution us against concentrating too much on how much we are 
talking about investing to overcome the deficiencies and that 
we all focus more on how to fix the system, whether that 
requires additional funds or whether it doesn't.
    Nearly 50 percent of the math classes in high-poverty high 
schools are taught by teachers with neither a math major, a 
math minor, or a related field--engineering, physics, or math. 
A major study by the Urban Institute using students' 
achievement data in the high school level in North Carolina 
found that Teach For America Corps members had a positive 
effect on student achievement relative to other teachers, 
including experienced teachers, traditionally prepared 
teachers, and those fully certified in the field.
    The impact of having Teach For America members was more 
than twice the impact of having a teacher with 3 or more years 
experience. Unfortunately, the budget and the blueprint does 
not fund Teach For America. How does your blueprint assure us 
that the top college graduates are going to find their way to 
this field?
    Secretary Duncan. I am a big fan of Teach For America. As 
in other areas, what we try to do is not just fund a single 
program, but create a competitive pool of resources and grow 
that. We have $235 million in money for teacher recruitment and 
retention. That is huge--a doubling of resources there, and we 
hope and expect Teach For America and other high-quality 
programs to compete vigorously there. There is an opportunity 
again not for them just to get their current levels of funding, 
but potentially significantly more.
    There is also the Investing in Innovation Fund, i3, which 
is trying to take to scale programs that have demonstrated the 
difference they make in students' lives. We understand there is 
some heartburn there. There are many great programs that aren't 
going to get their little slice of the pie. If they can 
demonstrate to us the difference they are making, they can not 
just get what they historically received, they could get 
significantly more.
    Your basic point is a huge one, Senator, that I keep 
saying. We can't close the achievement gap if we don't close 
the opportunity gap. So your fundamental point, how do we get 
more great math teachers? How do we get more great science 
teachers into underserved communities, be those rural or inner-
city urban? We want to put a huge amount of resources.
    This is a little controversial. I think math and science 
teachers, we should pay them more money. There is a shortage 
there. You pick a number in the local community to make a 
difference, and we need to pay them to go into tougher 
communities. We have, again, flexibility and the ability for 
folks that want to create, that want to be innovative, that 
want to bring talent to communities where historically there 
hasn't been enough, enough of critical mass. There has never 
been a larger opportunity to reward that local district and 
State innovation.
    Senator Burr. You said in your opening statement that we 
needed to have a laser focus on equity. In your blueprint, 
there is a discussion around funding equity at every level of 
the system. While we all agree that high-poverty schools should 
receive their fair share of State and local funding, the 
blueprint says nothing about ensuring Federal funding equity.
    Now title I does not have funding equity. As a matter of 
fact, on this committee, you have 6 of the bottom 10 States 
from a standpoint of title I funding--Utah, Iowa, North 
Carolina, Tennessee, Oklahoma, and Arizona. They pull up the 
bottom.
    Mr. Secretary, it is not even close from the standpoint of 
the range from $1,238 for a poor child in one State to $3,576 
in another State. The disparities only grew worse when we did 
the stimulus dollars. The ranges went from $2,125 per poor 
child in one State to $6,344 per poor child in another State.
    In ensuring that there is funding equity at every level, 
what in the proposal for eliminating these egregious inequities 
in title I do you have in ensuring that the Federal Government 
has equity in funding?
    Secretary Duncan. It is a fair question. I beg to differ. I 
don't know if the stimulus money increased inequities. We 
funded existing formulas. I don't know if we made those worse.
    Senator Burr. Well, in essence, what it did was that it 
provided for my Ranking Member, he went from $3,576 to $6,344, 
but in Tennessee, we went from $1,339 to $2,280. In other 
words, the people at the top of the list were rewarded. It is 
not necessarily where the greatest need might have been.
    Secretary Duncan. Well, the formula, as you know, is based 
upon concentrations of poverty. I am happy to have that 
conversation with you. But, just to be clear, the stimulus 
money didn't go by some new formula or some more----
    Senator Burr. No, my point was stimulus money highlights 
the flaw in our formula.
    Secretary Duncan. Yes, I hear the concern.
    Senator Burr. I look forward to working with you on it.
    I thank the chair.
    The Chairman. Thank you, Senator Burr.
    Senator Murray.

                      Statement of Senator Murray

    Senator Murray. Thank you, Mr. Chairman.
    Secretary Duncan, I know that you and I agree that 
effective literacy instruction is really a critical educational 
tool that keeps kids engaged in school and on track to succeed 
in college and in their career.
    We also know that children who are not at least modestly 
skilled readers by the end of third grade are far less likely 
to graduate from high school, and they are far less likely to 
be successful today. And we know that literacy can be a 
critical component in turning around some of those schools who 
are struggling today.
    I wanted to start by thanking you for your enthusiastic 
support of the Striving Readers program, and I am looking 
forward to continuing to work with you on the concepts behind 
that program, as well as the LEARN Act, which is the 
legislation I have introduced to improve comprehensive literacy 
instruction in every State in the country.
    I wanted to talk with you about one major difference 
between our proposals because I strongly believe that with 
content area like literacy, which is really at the base of all 
learning--if you can't read, you can't learn--every State, 
every State should have the support of the Federal Government 
in meeting the literacy needs of all of our students. In the 
Administration's 2011 budget, you create a competitive literacy 
program for just some States, rather than a formula program for 
all the States.
    If we want every State to have a comprehensive plan in 
place to address the literacy needs of its students, why would 
we only support the efforts of 15 or maybe 20 States to help 
students get those skills?
    Secretary Duncan. It is a very, very fair question, and to 
be clear, we haven't said we will just support the work of 15 
or 20 States. Obviously, we wanted to make sure folks were 
breaking through. We have about a 10 percent increase in 
funding for literacy.
    Your point is well taken. It is one I am happy to work with 
you on.
    Senator Murray. OK. I would like to work with you because I 
want to make sure we don't leave out States in this important 
area.
    I also wanted to ask you about the issue of competitive 
funds. Look, your budget proposal, the ESEA blueprint, put 
additional emphasis on teacher evaluation, on educator 
preparation, professional development. I agree those are all 
absolutely critical. Our students, our communities have to make 
sure we have got the best educators preparing them for success.
    In my home State of Washington, they are working on 
legislation right now to improve teacher evaluation systems and 
raise student achievement, and I want all of our States to have 
the resources they need to prepare our teachers and school 
leaders.
    I have some serious concerns about how the Administration 
is proposing to allocate those funds again because States, all 
the States, every one of them is struggling. It takes 
significant resources at the State level to do a good job of 
evaluating and supporting our teachers. I am really worried 
about the Administration's proposal that cuts $450 million from 
our Teacher Quality State Grants.
    If that funding is cut, my State is going to get a cut of 
$15 million a year for a very important program. You know all 
States depend on those grants to revamp their teacher 
evaluation systems and to increase opportunities for teachers. 
They provide opportunities to make sure our school leaders 
really are ready to take on the challenge that they have in 
front of them.
    My question to you is--what is the rationale behind cutting 
those formula grants to our States in one of the toughest 
budget climates we have had, at a time when we are asking our 
States to make major changes in teacher and leader preparation 
and when teachers and principals are taking on really 
significant added responsibilities today?
    Secretary Duncan. Again, let me just be clear for the 
committee and for the record that the overwhelming majority of 
our money, almost three-quarters of our money, will continue to 
be formula-based. So title I money, $14.5 billion continue that 
way. IDEA money, $11.8 billion, up $250 million, will continue 
to be based on a formula way. And teachers and leaders, that 
large pool of money we have, there is about a 10 percent 
increase, up $350 million to $3.86 billion.
    The challenge, Senator, I think we face as a country is 
that we have invested billions of dollars in this, and teacher 
evaluation in our country is broken. I went before the NEA's 
national convention with 5,500 teachers and talked about how 
evaluation doesn't work for any of the adults, and everybody 
cheered. I went to the AFT's convention with 2,500 members and 
talked about teacher evaluation being broken, and everyone 
cheered.
    We have spent as a country billions and billions of dollars 
on something that doesn't work for high-performing teachers. It 
doesn't work for teachers in the middle, and it doesn't work 
for teachers at the bottom who, after support and improvement 
where it is not working, should be doing something else.
    So, we have haven't broken through----
    Senator Murray. OK. Maybe some of the States aren't using 
it in a way that is currently effective. If we take the fund of 
Teacher Quality State Grants, and put it into a competitive 
fund, what I fear is that there is going to be an even bigger 
gap between the States that are ahead today and moving ahead 
and States that are just beginning these reforms.
    Secretary Duncan. To be clear, nothing precludes us from 
funding every State. What we are saying is that States have to 
take a close look in the mirror. States and districts, and a 
lot of this should be done at the district level, within the 
State's parameters. This needs to be worked out at the local 
level between unions and between the local management there and 
the boards of education.
    There is nothing that precludes us from funding everybody. 
Honestly, what we don't want to do is just continue to fund the 
status quo. When it doesn't work for any adults, it is not 
working for children either.
    Senator Murray. I can understand requiring States to 
undertake activities to improve their teacher quality grants. 
If we make this into a win or lose or a competitive thing, we 
are going to create a bigger gap.
    Secretary Duncan. Yes. Again, to be very clear, it doesn't 
have to be winners or losers. What we are saying--and people 
can agree or disagree--we are saying that the status quo is 
broken. It is absolutely broken after billions of dollars of 
investment. We have to fund in a different way.
    Senator Murray. OK. Be careful, what you don't do is say, 
OK, you guys who are really starting to make progress and 
making progress, you get the money. Those of you who are 
struggling, we are just cutting you out--because that won't 
help the States.
    Secretary Duncan. Right. Let me be clear, that has never 
been our interest. It has never been our intent. We are not 
interested--you know, it may be broken today. We are interested 
in are you willing to move? Are you willing to improve?
    So that State where the system is absolutely broken, OK, we 
all agree on that. Frankly, that is virtually every State in 
the country. It is not like anyone is knocking this out.
    I had a great conversation the other day with Randi 
Weingarten. I said, ``You tell me one place that is doing this 
impeccably well.'' She couldn't think of one off the top of her 
head. It is not where you are at, but it is where you are 
willing to go.
    If folks are willing to move, that is where we want to 
invest. Again, a 10 percent increase in investment. We want to 
put resources there. I promise you that. But if folks say, ``we 
are fine,'' status quo, don't change.
    Senator Murray. I don't think anybody is saying status quo. 
What we are saying is--don't create a competitive grant where 
if you have already got the capability to win, you win more. 
And I want to work with you on that, Mr. Chairman.
    Before I lose my turn, I just wanted to thank you, Mr. 
Chairman, as well as you, Secretary Duncan, for really pushing 
to fix the Pell Grants and student loans as we move forward in 
the next week. With all of our States struggling, cutting back 
budgets, students not being able to meet their financial 
demands, this is an issue that is critical. Thank you to both 
of you on that.
    Secretary Duncan. It is a huge one. One other quickly 
before you go. You had talked in the previous year on your 
concern about the inability to use title I money to fund the 
transportation of homeless students.
    Senator Murray. Correct.
    Secretary Duncan. In our proposal, we will have that 
flexibility.
    Senator Murray. I appreciate that very much. Thank you.
    The Chairman. Transportation is a big issue.
    Senator Murkowski.

                     Statement of Senator Murkowski

    Senator Murkowski. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. Good to see you.
    I know you made it up to the State. You mentioned that you 
had an opportunity to visit just about everybody's State and 
get into the schools. We do look forward to your visit to 
Alaska where we can get you into the schools.
    You had some issues with weather and mechanical, and that 
is travel in Alaska. But we'll welcome you back.
    Secretary Duncan. No. We went to schools.
    Senator Murkowski. You didn't get into the classrooms.
    Secretary Duncan. Hooper Bay.
    Senator Murkowski. Well, I want to talk about Hooper Bay.
    Secretary Duncan. That was a fascinating learning 
experience.
    Senator Murkowski. Because I do understand that you had an 
opportunity to spend a little bit of time with the principal 
there. This is how a community, like Hooper Bay, in a very 
rural part of the country would deal with how we anticipate we 
would move forward with these school turnarounds and how you 
take a school that is in a real difficult situation.
    As you know, they have been in need of improvement. They 
are at Level 5. They have been there for 6 years. Well, they 
haven't been there for 6 years, but it is their sixth year of 
needs improvement status. It is a very difficult situation up 
there.
    The school proficiency--fewer than 30 percent were 
proficient last year, 50 percent graduation rate. Teacher 
turnover is, as you know, absolutely impossible. The geography 
challenges everything that we do there. You are 153 miles by 
air from Bethel. There are no roads.
    When we look at, OK, how do you take a community, how do 
you take a school like Hooper Bay that is faced with not only 
the academic challenges, but the fact that you don't have 
teacher housing. There is no place for anyone to live. When 
they get there, there is no running water, no sewer. You 
basically move your own human waste down a boardwalk in a 5-
gallon bucket. These are not conditions that most teachers will 
be able to handle.
    When we talk about the options, replacing the principal, 
rehiring no more than 50 percent of the school staff, this is 
our problem. We can't keep good people there.
    How much flexibility will there be to deal with? The 
Ranking Member addressed it from another very rural 
perspective. How do we deal with this realistically?
    Secretary Duncan. It is one we need to continue to work 
through together. Obviously, that is one model you referred to. 
The transformation model is another one.
    I want to get to the core because whether--I have got to 
tell you, that visit impacted me deeply. That, and a visit to a 
school in Indian Country in Montana, in northern Cheyenne, 
are--I have had some extraordinary days over the past year, but 
those are two that are always going to stick with me.
    To see the struggles of those communities, to see the lack 
of resources and what we need to do, I just want to give you my 
personal promise that I want to do everything I can to help 
those children be successful. In both those communities and I 
heard it in Senator Enzi's, in Wyoming, teacher turnover is a 
huge challenge.
    Teachers come for a year or two, do great work, and leave. 
So, I can't push this hard enough. We want to put a huge amount 
of resources on the table. I think teachers who go to Hooper 
Bay or go work on an Indian reservation, we should pay them 
more money. It is not just about money. We need to do lots of 
other things. We need great principals. We need to pay 
principals more money and keep them there.
    We treat all these jobs equal. When you go to a place like 
that that literally doesn't have running water, that doesn't--
they actually in Hooper Bay did have teacher housing, but huge, 
huge challenges there. The school I visited in northern 
Cheyenne country with massive teacher turnover, how can 
students learn when every year, every 2 years, it is a whole 
new team there.
    Senator Murkowski. You are never able to build a 
relationship or any kind of trust with a teacher or anyone 
within the Administration.
    Secretary Duncan. Exactly. I think we haven't--Senator, I 
just want us all to think about this. I think, as a country, we 
have lacked total creativity in this area. We need to be very, 
very innovative about how we attract and retain great talent to 
underserved communities, be that rural, be that very rural, 
isolated rural, be it at the heart of the inner-city.
    We have had virtually no incentives and lots of 
disincentives. I keep coming back. If we are serious about 
closing the achievement gap and giving your children there a 
chance to be successful, we have to close the opportunity gap. 
So, we want to put, again, unprecedented resources out there to 
people who are willing to do some things differently.
    We are not going to get it all right, and we will make some 
mistakes. We can't just keep doing the same thing. Those 
students will never have a chance as a child where there is a 
much more stable workforce, will never have the same 
opportunity. So, we want to work----
    Senator Murkowski. Well, you say unprecedented resources, 
and yes, money is certainly an issue. If we are able to pay 
teachers more, perhaps we are able to see that. Actually, in 
some of the school districts up north where they are able to 
pay their teachers more, you would think that we would not have 
the turnover issues that we do. They are still there. It is 
still a difficult environment, and you saw for yourself.
    In addition to significant resources, I think, again, we 
have got to have the ability to be flexible. To look at 
different things and to say what might work in Iowa or Wyoming, 
even though they are real rural, doesn't necessarily translate 
to Alaska. I would hope that we have, within your blueprint, a 
level of flexibility and ability to resolve things like this.
    Secretary Duncan. Absolutely. I give my commitment we will 
absolutely try and do that. That is the right thing to do.
    Let me be clear, it is not just about more money. It is 
about creating a climate and environment in which teachers and 
principals want to go there. What about, as a country, what if 
we had some schools of education specifically training teachers 
to go to rural communities, specifically training teachers to 
go to the heart of the inner-city. What is our pipeline of 
talent of folks where this is their heart, this is their 
dedication?
    What are we doing creatively to get a great, great 
principal and say, ``You go to this community for 5 years, 10 
years, whatever. You transform it.'' That is the capstone of 
your career. That is not some--you know, we are not sending you 
out as a punishment. We are sending you to these communities 
because you have done such an extraordinary job, and we want to 
reward you for doing that, and we want to help you build a 
great team around that.
    There is so much, again, that we could do in a much more 
creative and thoughtful way. As a country, we haven't touched 
that. Right now, we are selling our children short.
    Senator Murkowski. Well, I would like to work with you on 
that. I know that we have some great administrators that have 
some good ideas. We have some good parents. We have a couple 
PTA folks from Alaska here that are listening to you this 
morning, and I know that they would like to be participants in 
giving you some good feedback.
    Secretary Duncan. Thank you. That visit impacted me deeply.
    Senator Murkowski. Thank you. Look forward to the next one.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murkowski.
    Senator Sanders.

                      Statement of Senator Sanders

    Senator Sanders. Thank you very much, Mr. Chairman.
    Mr. Secretary, thanks for being with us.
    Let me begin by looking at this issue of enormous 
consequence in a broader context. One of the points that we 
don't make often enough is that in our country, we have by far 
the highest rate of childhood poverty of any other country on 
Earth. Last week, Chairman Harkin did a very good thing, 
something that is unusual, he brought somebody from the OECD to 
us. We are not just talking about Iowa versus Vermont. More 
importantly, we are talking about the United States of America 
versus the rest of the world.
    What Mr. Schleicher told us, an expert in education from 
the OECD, is not good news. What he is saying is that in terms 
of the number of our kids who graduate high school, we are now 
behind every other country in the OECD other than New Zealand, 
Spain, Turkey, and Mexico.
    In terms of the percentage of our young people who graduate 
college, we have gone from 2d to 14th in the world between 1995 
and 2005. He didn't talk about it, but we all know we have more 
people in jail than any other country on Earth, and I suspect 
that many of those people are high school dropouts.
    Secretary Duncan. Almost all of them.
    Senator Sanders. Furthermore, and an issue that I want to 
touch on, I don't know how we can expect kids to do well in 
school if the first 4 or 5 years of their lives, they don't 
have their intellectual or emotional needs addressed. Today, 
our child care system, and I raise this because it has to be 
dealt with, is nothing less than unmitigated disaster.
    We are still operating like we were in the 1950s, where dad 
went out to work and mom stayed home with the kids. Well, let 
me just mention to people that is not the reality anymore. Well 
over 70 percent of women are out in the workforce. Now how in 
God's name--in my State to get good child care costs $350 a 
week. How do you pay that? A, if you are a single person, it is 
impossible. And B, if you are a working couple, it is very, 
very difficult.
    I think that in needs of our priorities, we have got to get 
our act together and start changing our priorities. If we talk 
about family values, if we talk about children being the hope 
and the future of this country, we have got to pay attention to 
the youngest and most vulnerable among us. We need a revolution 
in child care--every kid in this country, as is the case in 
many European countries.
    I know some of my Republican friends denounce Europe. Well, 
I am not so sure. They have quality child care virtually in 
every country for their kids. College education is free in many 
cases. I don't think that is such a bad idea myself.
    I would like to ask you, Mr. Secretary, I want you to talk 
about child care, talk about making college more affordable, 
talk about extended education, which means strong afterschool 
programs, Saturday morning programs, and summer programs, mixed 
recreation and academic.
    Secretary Duncan. Thank you so much, Senator, for your 
passion and for your leadership.
    I think we have a President who intuitively gets this, and 
this 0 to 8 agenda is hugely important. If we want children to 
be college and career ready graduating from high school, they 
need to be kindergarten ready.
    Senator Sanders. Exactly.
    Secretary Duncan. For our children to be kindergarten 
ready, it is not just pre-K, 3, and 4, it is birth. It is birth 
through 5 and, really, birth through 8.
    Senator Sanders. Do you agree that our current system is a 
disaster?
    Secretary Duncan. We have a long, long way to go. We have a 
long, long way to go. I think some children are served well. 
What we see--it is fascinating, Senator--is we look at the 
data, we see sort of kindergarten through eighth grade, we see 
students learning, but we see this stubbornly large achievement 
gap.
    What I keep saying in education, Senator, is we have to 
stop playing catch-up. We are all playing catch-up. How do we 
stop playing catch-up? We level the playing field for children 
and----
    Senator Sanders. Let's get back--I know there is a lot to 
talk about. I don't have a lot of time. Get back to child care. 
How are we going to revolutionize child care in America?
    Secretary Duncan. I think we have to make sure--and again, 
the President has proposed almost $10 billion in this early 
learning challenge fund for the next decade, historic 
investments. We are going to work with HHS on this. We want to 
make sure that we dramatically increase access, and we 
dramatically increase quality.
    If this is glorified babysitting, it doesn't get us where 
we need to go. If children are entering kindergarten with their 
literacy skills intact, with their socialization skills intact, 
ready to read, ready to learn----
    Senator Sanders. To do that, you are going to have to pay 
child care workers commensurate salaries to what we pay 
teachers. Is that right?
    Secretary Duncan. You have to increase investment there. 
You have to increase training. You have to focus on outcomes. 
There is so much that we have to do. But yes, we have to 
invest, and we have to make sure, to your point, that the most 
disadvantaged children have access to the opportunities that 
they need.
    Senator Sanders. Would you argue that a child care--and I 
don't know if that is the right term. Specialists who work with 
young children are as important in our society as college 
professors? I mean, you know, we say college professor is a big 
deal. Yet you work with little children who are 2 or 3, you are 
shaping their lives. You leave that job to get a job at 
McDonald's for a pay increase.
    Secretary Duncan. Anyone who works with our children in 
this country is undervalued, under supported, under resourced, 
and we need to increase those----
    Senator Sanders. Well, I look forward to working with you. 
I don't know how we are going to make great advances in 
elementary and secondary education, lest we address child care 
as well.
    Secretary Duncan. Again, the President has this 
unprecedented proposal on the table, almost $10 billion over 
the next decade, for an early learning challenge fund.
    Senator Sanders. Is that tied up in the reconciliation 
package?
    Secretary Duncan. It is part of the higher education----
    Senator Sanders. We are going to lose that, aren't we? We 
are going to have to rethink that.
    Secretary Duncan. I hope not. I know this is being 
discussed by the hour and by the minute. I hope it stays. If it 
doesn't, we need to find another vehicle.
    Senator Sanders. OK. Thank you.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Sanders follows:]

                 Prepared Statement of Senator Sanders

    Thank you Mr. Chairman for holding this hearing today, and 
thank you, Secretary Duncan for coming to testify on your 
blueprint for the Reauthorization of the Elementary and 
Secondary Education Act.
    The blueprint for reauthorization that we have received 
from the Obama administration is a step in the right direction. 
Over the past decade, under the Bush administration's ``No 
Child Left Behind Law,'' schools have been lowering their 
standards, the government has imposed unfunded mandates, 
teachers have been punished and worst of all, students have 
been left behind. Although well-intentioned, No Child Left 
Behind puts too much emphasis on testing, therefore narrowing 
the curriculum of many classrooms and putting the focus on 
``teaching to the test.'' In addition, it punishes schools that 
are failing with penalties and lack of funding instead of 
helping them overcome obstacles so that those schools could be 
successful. Too often those failing schools are the ones that 
are servicing the students who need the most help.
    We have the chance to do much better with the reauthorizing 
of this law. The blueprint that you are sharing with us today 
from the Department of Education and the Obama administration 
certainly puts us on the right track. I commend you on moving 
towards using progress and growth to measure our students. In 
addition, I applaud your taking some emphasis off standardized 
testing by using other measures of accountability such as 
graduation rates, attendance rates and school climate measures. 
It is often these types of indicators that show what is truly 
successful at a school rather than standardized tests.
    There are however, some concerns I have with the blueprint. 
Most importantly, we need to remain aware of the concerns of 
small and rural States. The shift towards competitive funding 
that you emphasize does not represent progress in educational 
funding. In fact, it is the opposite. Many small and rural 
States do not have the resources to write large, comprehensive 
grants, especially in the current economic climate. The smaller 
States are then at a competitive disadvantage to receive this 
funding. The purpose of Federal education programs in the 
United States is to provide equity in our education system, by 
ensuring that disadvantaged communities have access to the same 
resources as wealthy ones. I am concerned that a shift toward 
competitive funding would be counterproductive to this goal.
    Recently, I wrote a letter to you with some of my 
colleagues, some of whom are represented on this committee, 
highlighting the concerns of rural States. Perhaps most 
importantly addressed was the issue of innovation. What is 
innovative in some States may not work in others. Requirements 
that emphasize the creation of charter schools are not always 
the best way to serve the needs of isolated or low-density 
populations. Vermont has explored some extremely innovative 
practices in education, including the opening of two magnet 
schools in Burlington, the Integrated Arts Academy and the 
Sustainability Academy, which is the Nation's first K-5 magnet 
school with a sustainability theme. I hope that as you explore 
innovation in education you look towards examples such as these 
from rural States.
    The task of reauthorizing this legislation will not be 
easy; however we have much work to do. Again, I thank you for 
your efforts, Mr. Secretary, and look forward to working on 
this with other members of the committee.
    The Chairman. Thank you very much, Senator Sanders. I will 
talk to you about some of this.
    Senator Coburn.

                      Statement of Senator Coburn

    Senator Coburn. Thank you.
    Mr. Duncan, welcome.
    Secretary, as you know, I am a big believer in a lot of 
your philosophy. I am supportive of a portion of it. I wanted 
to ask you a couple of questions. One is a hard question, and I 
think you owe it to the American public to explain it.
    We have 1,500 kids in Washington, DC that are going to lose 
their vouchers. Seventy-six percent of those kids are going to 
go into failing schools. How in the world can we let that 
happen?
    Secretary Duncan. Very, very fair question. I have talked 
about it repeatedly. We worked very hard to make sure students 
currently in that program could stay in it.
    Our research team did a pretty thorough analysis of what 
was happening, and I will get my numbers a little backwards. 
Over a 3-year period, it was either reading or math, one of 
them there was no significant gain. One of them gained about 3 
months over 3 years. That is basically a month a year. That is 
a good tutoring program, but the results were mixed at best.
    The big thing, Senator, that I think folks don't understand 
is how serious we are about if private philanthropy wants to 
help or individuals want to help with scholarships, I am all 
for that. I think we at the Federal Government level, at the 
local government, we need to be much more ambitious. What I 
don't want, Senator, is to pull 2 children out and leave the 
other 98 to drown.
    When we talk about $3.5 billion in school improvement 
grants and what we want to try and do to turn around entire 
schools for every single child, that, to me, is where we need 
to be putting our efforts. We have a huge opportunity to break 
through there.
    Senator Coburn. Thank you.
    We had the good fortune to listen to Bill and Melinda 
Gates, and all the money that they put into education and what 
they found. As we have had teacher-pupil ratios decline in this 
country and not seen a significant difference in outcomes, it 
was revealing to me their statement.
    Class size doesn't make any difference. The only thing that 
makes a difference is the quality of the teacher, and they not 
only have confirmed that with the spending of their own money. 
They have actually done studies that will support that view.
    The question, and some of it comes back to what others have 
raised is, is creating an incentive system in this country 
where we highly value great teachers and we get rid of bad 
ones. I am not sure--first of all, I am not sure, as somebody 
who is probably more stuck on the Constitution. I am not sure 
of the role of the Federal Government here. I think we have not 
seen a tremendous positive impact, whether it is a Republican 
administration or a Democratic administration in the 
differences.
    I was just wondering now that you have been into your 
position for over a year, I know we have the blueprint--and the 
bell is going off. We have the blueprint, but the point is, is 
what really needs to change? If you weren't within the 
constraints of us and the President, what would be coming 
forward here?
    Maybe that is an unfair question. I know you have the 
knowledge, and I know you have the heart.
    Secretary Duncan. It is a great question. I think I 
couldn't agree more there is nothing more important than great 
teachers. Again, let me emphasize not just great teachers, but 
great teachers in historically underserved communities. 
Children in disadvantaged communities where all too often--not 
always, but all too often--talent flees, and we haven't created 
incentives there.
    You have a lot of opinions. I have a lot of opinions. 
Senator Bennet has been an absolute champion on this issue and 
gets it. The luxury we have, the opportunity we have that I 
want folks to understand is we don't have to come up with the 
good ideas here in Washington.
    What we have now, if this budget passes, historic 
increases, we have a chance to invest in what is working at the 
local level. And so, ideas in your State, ideas around the 
country, where folks can demonstrate that they are doing things 
differently, that they are identifying effectiveness 
effectively, which is hard to do, that they are getting those 
effective teachers to the students who need the most help in 
the communities in your State or in Hooper Bay. We can put huge 
resources behind that.
    I don't think we have to come up with a great policy idea. 
All the facts are out there. What we need to do is invest in 
excellence, invest in success, and we have a chance to do that. 
I think that is a game-changer. I am very optimistic on that.
    Senator Coburn. Which brings me to another question. During 
your confirmation hearings, I asked you about the highly 
qualified provision for special ed teachers, and you said you 
would look into it. Then when I read the blueprint, what I see 
is more requirements in that area rather than less.
    What concerns me is, in Oklahoma, what you have done with 
the highly qualified mandate, and it really wasn't yours--you 
have inherited it. The fact is, our best teachers for our kids 
with significant problems are gone because they are not going 
to spend the money to get a master's degree in every one of 
those areas so they can be qualified when they have 25 years of 
experience and tremendous outcomes to show what they have done.
    In this blueprint, you are actually expanding that rather 
than restricting it. That actually goes against what you just 
said.
    Secretary Duncan. Yes. I beg to differ. I don't think we 
are expanding it. If we are, we will reverse that. What we are 
actually doing, and I will be very clear on this, is we want to 
move from highly qualified based on paper credentials to highly 
effective based on the difference that teachers are making in 
students' lives.
    Senator Coburn. We have actually eliminated a bunch of 
highly effective teachers in Oklahoma to meet the requirements 
of what the Federal Government has said you have to meet.
    Secretary Duncan. I understand that. We will work with you 
to try and fix that. We inherited this----
    Senator Coburn. Let me go back in to what your blueprint 
says.
    Secretary Duncan. What we want to do here is, and this is 
not just in Oklahoma. It is in Alaska. We heard it loud and 
clear in Wyoming. It is a big rural issue that where you have a 
teacher teaching four or five different subjects, how are they 
going to get the paperwork?
    Frankly, I don't care if you have four advanced degrees, if 
your students aren't learning, you are not that effective. If 
you don't have any advanced degrees, but your students are 
really improving, that is the kind of teachers we want.
    Senator Coburn. That is exactly what I wanted to hear. In 
your blueprint, you require to develop the definitions of 
``effective teacher, effective principal, highly effective 
teacher, highly effective principal.'' Well, that is another 
Washington mandate that we are going to develop those, and we 
are going to say whether you measure it, when, in fact, 
outcomes are what count.
    Secretary Duncan. Let me just be clear. We want to define 
effectiveness based on outcomes. We will work with you on this, 
but we are not adding paper credentials to where we are going. 
That is absolutely not where we are going.
    Senator Coburn. All right. Well, listen, I appreciate the 
job you are doing. I look forward to working with you and 
excited about you being in the position you are in.
    Thank you.
    I yield back.
    The Chairman. Thank you, Senator Coburn.
    Senator Hagan.

                       Statement of Senator Hagan

    Senator Hagan. Thank you, Chairman Harkin.
    Secretary Duncan, thanks for your testimony today. I 
appreciated your quote, ``that we are going to be moving from a 
compliance monitor to a creative innovator.'' I think that is a 
good setting for reforming No Child Left Behind.
    I am pleased that the Administration's blueprint represents 
significant improvements to No Child Left Behind, and I 
especially appreciate the focus on having our students college-
ready and career-ready. I think we are now the only developed 
Nation with a younger generation that has a lower level of high 
school or equivalent education than the older generations. This 
is certainly an unacceptable position to be in.
    It is my hope that the clearly stated and obtainable goal 
that the United States will lead the world in college 
completion by the year 2020 is the impetus that we need to move 
forward and reform our education system.
    One of the areas that I have been focused on quite a bit is 
financial literacy education. When I was in the State senate in 
North Carolina, I championed legislation dealing with that. I 
am very concerned, especially when looking at the financial 
situation that we have been in recently in our country, that we 
really focus on teaching financial literacy to our students so 
they understand how to manage credit, mortgages, student loans, 
and living in the world today.
    You have acknowledged the importance of ensuring that every 
student receives a well-rounded education, but does the 
Administration believe that financial literacy education can be 
a part of that?
    Secretary Duncan. Not only do we believe it, it is part of 
that. In our bucket, which you called well-rounded education--
trying to get away from this narrowing of the curriculum that I 
heard complaints about all over the country--we have $1 
billion. A $100 million increase is a part of that. We have a 
$265 million set of money, a 17 percent increase. In that is 
history, arts, financial literacy, languages, and other things.
    We absolutely want to address the financial literacy 
crisis. We talk about educating our way to a better economy. 
Yes, it is reading and math and language arts. It is financial 
literacy. Our country would not be in the situation it is 
today, we would not have gone through that crisis, I think, if 
we had done a better job of this going back 10, 15, 20 years 
ago.
    We are committed to doing it. This is one that we are not 
going to do alone. We are partnering with Secretary Geithner 
and the Treasury on some really interesting programs and trying 
to raise the level of awareness. I will tell you this is a 
personal passion of mine. I got my start in public education by 
starting a small public school on the south side of Chicago, a 
pre-K through 8 school.
    The focus of that school's curriculum is financial 
literacy. What the students are doing there is absolutely 
remarkable, starting with kindergarten. And guess what? Because 
you are teaching those things, math scores take off. Reading 
scores take off. It is one of the highest-performing schools in 
the city in a very, very poor community.
    I think a huge reason for the success of that school is 
because financial literacy has been ingrained, embedded in 
everything that school is doing. That is how I started in 
public education.
    Senator Hagan. Thank you for that. We certainly need to 
replicate that in every school in our country. If our students 
had had that knowledge, I don't think we would be where we are 
today. We have got to enforce that.
    Another issue that I am concerned about is what is 
happening to our kids outside of school. The fact that so many 
of our children today don't have adequate nutrition. They don't 
have adequate healthcare. They don't have parental involvement 
in their day-to-day lives and the resources that they need.
    As you discuss your vision for school turnaround models, 
what thoughts do you have on ways that we can address these 
out-of-school factors when restructuring our schools?
    Secretary Duncan. Yes, hugely important. Again, it goes 
back to Senator Sanders' comments on early childhood education. 
We have to be part of the solution, and we have to partner in 
very new ways with HHS.
    On your question, I will just take one of those issues, 
child nutrition. We have to partner in very different ways with 
the Department of Agriculture, and Secretary Vilsack is, I 
think, doing an extraordinary job of pushing to get more 
nutritious food into schools, more of the junk food out of the 
vending machines.
    Let me just take a step back. We are going to make a 
massive investment, $1.8 billion, in what we are calling 
student supports, extending the school year, extending the 
school day, making sure we have safe and healthy students, the 
Promise Neighborhoods initiative I talked about. There are some 
foundational things that if we don't get right, I don't think 
our children can learn.
    If our children are hungry, it is hard to concentrate in 
class. I grew up as part of my mother's afterschool program, 
and the first thing she did every day when the children came to 
her is she fed them. She fed them. Then we started doing some 
academic work.
    If children aren't safe in school or coming to and from 
school, it is hard to concentrate in algebra, trig, or biology. 
We have to create communities in schools and around schools, 
and one of the things we want to do which we haven't talked 
about is really ask schools what is the climate? And survey 
students, ``Do you feel safe? Are there high expectations?'' 
Ask parents how they feel about it.
    We have to get at those environmental things. If students 
can't see the blackboard, they can't learn. So, we need to find 
those partnerships. In Chicago Public Schools every year, we 
gave away free tens of thousands of eyeglasses. If you don't do 
that, you are kidding yourself.
    There are some foundational things around safety, 
emotional, physical, psychological safety, that if we are not 
hitting those, we are not in the game. We are going to do 
everything we can ourselves to do a much better job. We have to 
partner, again, with HHS, with the Department of Agriculture, 
attorney general's office. Attorney General Holder is helping 
me think about violence in communities. I worry tremendously 
about the violence that so many of our children are 
experiencing not in school, but to and from school in their 
neighborhoods.
    We have to address all those things if we are serious about 
students not just graduating from high school, but being 
prepared to do something else afterwards.
    Senator Hagan. I am glad to hear those comments. I had one 
other concern. When you were talking earlier, you mentioned 
that math and science teachers should be paid more. I think we 
have a critical shortage of math and science teachers in our 
schools and in our country, and I think that is an area that 
we, as a Nation, have got to be focused on. The ability of our 
teachers to teach and our students to learn science, math, 
engineering, and technology for all of the green energy jobs 
that are going to be available. Could you elaborate on that 
statement?
    Secretary Duncan. Yes. I think, again, this is where I 
think we have lacked, and this is a broad statement. There are 
pockets of innovation, but as a country, we have lacked 
creativity here. Whether it is math or science, whether it is 
special education students, whether it is foreign language 
teachers, where we have areas of shortage, we need to do some 
things differently.
    It's how we reward and compensate folks, how we recruit 
them. I will tell you, in math and science, one of the only 
benefits of a tough economy is there are folks coming out of 
industry who have great math and science content knowledge, who 
actually know physics and know biology. We should be much more 
creative in how, through alternative certification tasks, how 
we bring in this great talent.
    Whether it is compensation, whether it is teacher 
pipelines, we haven't done enough here, and there are great 
people out there who want to make a difference. I will never 
forget, I spoke with a gentleman--I won't use his name--an 
extraordinarily well-respected national figure who wanted to 
come teach science in an inner-city high school, and because of 
the licensure requirements, he was prohibited from doing it.
    So guess where he ended up--Princeton University. He was 
good enough for Princeton, but he wasn't good enough to go 
where he wanted to go. Something is wrong with that picture. He 
said, ``Arne, I was dying to go there. They would not let me.''
    That is not just an isolated case. That happens time ``and 
time again''. Where we have talent that wants to make a 
difference, we need to be much more thoughtful, much more 
creative in how we get that talent in. Again, unfortunately, 
given a tough economy, there is a lot of talent out there that 
we could be benefiting from today.
    Senator Hagan. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Hagan.
    Senator Roberts.

                      Statement of Senator Roberts

    Senator Roberts. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary.
    I am interested in this business of a district and State 
definition of effective and highly effective teacher, and I am 
trying to find desperately here. ``State-wide definition''--
this is page 14 of your very excellent summary here. It says, 
``State-wide definitions of effective teacher, effective 
principal, highly effective teacher, highly effective principal 
developed in collaboration with teachers, principals, other 
stakeholders based on significant part, on student growth, also 
other measures as classroom observations.''
    I am thinking then that, basically, somebody can come in 
and take a look at you when you are teaching and make some 
judgments. And then, second, what happens to your students? In 
other words, if you have student growth, if you have student 
performance, why then are you a highly effective teacher.
    The thought occurs to me that if you are a teacher, say, 
that you are a journalism teacher and say that you have the 
yearbook and say that you have the student newspaper. Say that 
you even have the debate team. You have great kids. They will 
wear you out. It is a 24-7 job, and anybody that comes into the 
classroom would probably be impressed, more especially if you 
were trying to put together the paper at the last minute or 
work on any particular job.
    I am just wondering what about the rest? Other teachers 
will not have that kind of category of student. How do we give 
them a shot to become a highly effective teacher?
    Secretary Duncan. It is a great question, and there is 
actually some--not enough, but there is some very interesting 
work that a set of districts are doing around that. Whether it 
is goals that teachers set out at the start of the year and 
they are working toward that, whether it is principal 
observation--and to your point, if you come in for 15 minutes 
once, that doesn't work. If you continue to work, I am a big 
believer in peer review and having teachers look at how other 
teachers are doing, and no teacher wants to be working next 
door to a teacher that is not pulling their weight.
    There are multiple ways to get at it through goals, through 
leadership. Again, if a teacher is volunteering on the yearbook 
team or the debate team or the academic decathlon, and there 
are a series of districts who have put in place very robust, 
comprehensive evaluation systems that look at many, many things 
beyond just a student's test score, and that is the way it 
should be. No one should be evaluated by one test. It doesn't 
make sense.
    Senator Roberts. The other thing that I would bring up from 
the rural standpoint, you are getting a lot of questions from 
the standpoint of rural and small town America, a lot of 
representation here in that regard. And you say that, 
basically, both States and districts must publish report cards 
every 2 years that provide information on key indicators such 
as teacher qualifications, teacher and principal designations 
of effectiveness, teachers, principals hired from high-
performing pathways--I am not sure what that is--teacher survey 
data on levels of support, working conditions in schools, the 
novice status of teachers and principals, teacher and principal 
attendance, retention rates of teachers by performance level.
    States will also be required to report on the performing of 
teacher and principal preparation and program by their 
graduates. Obviously, the record of the football team. I tossed 
that last one in.
    [Laughter.]
    Secretary Duncan. I was hoping that wasn't in there.
    Senator Roberts. I just put ``wow'' after all this in terms 
of a small school district trying to figure out--I don't know 
if you have this computerized or if it is on a floppy disk or 
whatever. Or if floppy disks even exist anymore.
    [Laughter.]
    That is going to be quite a burden, it seems. Well, not a 
burden, but at least a challenge in that regard. And that is 
just an aside.
    What I really want to get at is on page 17, on teacher and 
leader pathways, and you say priority may be given to programs 
that work to recruit and prepare high-performing college 
graduates or nontraditional candidates, such as military 
veterans or mid-career professionals, i.e., somebody who said, 
you know, in college or pre-college I didn't want to become a 
teacher. That never entered my head, but I have always had this 
idea that I would like to be a teacher.
    The back door is shut because in terms of the 
certification, you have to have X, Y, Z in regards to a lot of 
college courses. The two favorites are standard--well, one is 
test and measurement and standard deviation, where you spend 2 
weeks trying to study math enough to do the standard deviation, 
which you never use in the classroom because you don't have 
time. The other one is the famous B.F. Skinner, who fed pigeons 
and rats occasionally and then a lot and then maybe not at all 
and then tried to figure how that transferred into the 
classroom.
    Bottom line, if you give pop quizzes, you get better 
results because the kids don't know when they are coming and 
they study all the time, as opposed to having a test every 
Friday, where they study every Thursday night. I am not too 
sure that we need to read volumes about B.F. Skinner, with all 
due regard to the great man.
    How are you going to do that? To eliminate incentives for 
teachers to obtain credentials that have been shown not to be 
linked with student performance. I have been fighting that for 
years. Say something.
    [Laughter.]
    Secretary Duncan. I was trying to take it all in and 
process. I was still in processing mode there. I will try and 
switch to speaking mode.
    Senator Roberts. Well, No. 1, do you agree with my back 
door assessment that there are a lot of good teachers out there 
that certainly could teach and should teach, but they have a 
lot of hurdles out there that--
    Secretary Duncan. That was our earlier conversation on 
alternative certification. So, yes, I am less interested in 
where teachers are coming from, and I am more interested in how 
well their students are learning. There are many different 
paths to be a great educator. There are great schools of 
education, and there are poor schools of education.
    I think there are great pools of talent, Troops to Teachers 
being one of them, that have been significantly underutilized. 
I think there are physicists and mathematicians and chemists 
and biology professors who would love the chance to teach in a 
public school, but we have made it far too hard.
    So, again, I keep coming back to it. We want to put 
significant resources behind those districts and States that 
are much more focused on getting great talent in and supporting 
that talent than in that candidate's paperwork.
    Senator Roberts. I appreciate it. I have some other 
questions I may submit for the record, and I am already 2 
minutes over time, which the chairman will tell you is a usual 
practice, and I apologize to my colleagues.
    The Chairman. Thank you very much, Senator Roberts.
    Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary.
    If Senator Roberts wants to make a mid-career change to 
comedy, I know some people.
    [Laughter.]
    Secretary Duncan. I need him teaching.
    Senator Franken. Bernie Sanders talked about Mr. Schleicher 
coming with the OECD results, and they were disheartening in 
terms of where we have been going in recent years compared to 
the rest of the OECD countries. One thing I noticed that even 
in countries that are more diverse than we are, the achievement 
gaps are lower.
    Secretary Duncan. Smaller, yes.
    Senator Franken. What it seems to suggest in the report was 
that these OECD countries put more effort into high-need 
schools. I was very, very happy to see the emphasis that you 
are putting on principals and putting principals in the high-
need schools, recruiting them and training them.
    Senator Hatch and I have introduced a bill that is similar 
to your transformational leaders proposal, and because 
principals create the ethos in the school, teachers obviously 
are the key ingredient in the classroom. In recruiting 
teachers, in keeping teachers, and leading teachers, that is 
what a principal does.
    It is so important that principals become more than like an 
administrator of a building and be a school leader. Can you 
just provide some further details on the type of training 
aspiring principals would get under transforming leaders?
    Secretary Duncan. Absolutely. Let me say that we are 
challenging everybody to behave in different ways and move 
outside their comfort zones. I just want to let this committee 
know that every day we are trying to look in the mirror and be 
very self-critical. I think, frankly, in many ways, we have 
been part of the problem as well, and so we are trying to 
change our behavior very significantly.
    One of the areas where I think we have been part of the 
problem is, we have dramatically underinvested in principals. 
As I said before, there are no good schools without good 
principals. I think it was on a visit with Senator Enzi in 
Wyoming, talked to a teacher who drove an hour out of his way 
past a bunch of schools not for any money, but because he loved 
that principal and wanted to stay at that school.
    You see that time and again where you could pay a teacher 
$50,000 more, but if they are going to a bad school where there 
is no leadership, they won't take it. Or you put a good 
principal in there, you have a chance to do it. We need to 
think about how we train the next generation of principals, how 
we train them to take on those toughest assignments. This is an 
area where Senator Bennet has huge interests, how they become 
those turnaround principals.
    Principals today are CEOs, and we need to train them as 
such and reward them as such. They have to be instructional 
leaders. They have to be able to attract and retain talent, 
probably the most important thing they do. They have to be able 
to often manage multimillion dollar budgets. They have to work 
with the community. They have to work with the media.
    If we had a great principal in every one of our 95,000 
schools, we could all retire. We would be done. Our job would 
be finished. The schools would heal themselves. We can't put 
enough emphasis on training and preparing the next generation 
of great principals, but to your point specifically, to going 
to those historically underserved communities.
    Senator Franken. Is mentoring, like putting a principal 
with another principal who has been successful in turning 
around a high-need school is, I think, a great way to create 
and recruit and train principals.
    Secretary Duncan. Ninety percent of this education is not 
going to be in some textbook. This is going to be hands-on, in 
the community, working with an established leader. Those kind 
of residency models, whether they are for principals or for 
teachers, sort of base them on the medical model, I am a big 
fan of.
    Senator Franken. Every one of us has gone over a little 
bit. I still have some time left, but I know that each of us 
would probably like to have an hour with you on this at least. 
And we are going to continue. This is an ongoing discussion.
    I really love that you are focusing on progress and growth 
and not hitting an arbitrary score. When I introduced this 
principals bill and talked about it in Minnesota, I had 
principals talking about the current way of testing, and they 
called the test results ``autopsies''. That you would give it 
in April and you would get it June, and kids were going out the 
door. And it was too late.
    In Minnesota, teachers and school superintendents have 
talked about a test that they have, the NWEA test, are you 
familiar? The Northwest Evaluation Association exam.
    Secretary Duncan. Very familiar with it.
    Senator Franken. I am sure there are many like them around 
the country. It is a computer test. As you answer questions 
correctly, they get harder, and if you do them wrong, they get 
easier. You get the results right away, immediately.
    In Minnesota, they give them three times a year. You can 
measure--this is what I think parents thought we were going to 
get when we heard about No Child Left Behind. ``Oh, great. My 
kid will be tested. The teacher will be able to look at it and 
diagnose what my child needs.'' We had none of that.
    We are going to be able to do this kind of testing, right? 
Where you can test several times during the year, measure the 
kids' growth, but the teacher can look at the kids 
diagnostically, right?
    Secretary Duncan. I don't even call it testing. I call it 
evaluation, ongoing evaluation. What we are seeing around the 
country is a breakthrough in this.
    I have talked to hundreds and hundreds of great teachers 
who, as good as they were, they are saying this is taking their 
teaching to an entirely different level. They are not having to 
guess anymore. They know whether what they taught students 
picked up, and things that students didn't pick up, they would 
have to re-teach and they have to group students differently 
and do differential instruction.
    That is the tools that teachers desperately need that for 
far too long they have been denied. There are some great 
programs out there. I think this is going to continue to evolve 
and get better and better.
    That real-time data that tells teachers, that tells the 
children themselves, and tells parents these are my strengths 
and these are my weaknesses. And let me be very clear, If we 
get real college- and career-ready standards in 12th grade, we 
should know in 9th grade and in 6th grade and in 3d grade, am I 
on track to hit those? There should be no guessing. There 
should be no surprises when you get to that junior, senior 
year.
    We need to back map this all the way down and give 
everybody that real-time data. As I look around the country and 
see schools where we are seeing this remarkable increase in 
growth and gain, almost every single one, they are using these 
forms of assessments. It has been an absolutely powerful tool.
    One final thing I would say, one of the biggest critiques I 
am hearing from teachers is this is very rarely being taught in 
schools of education. This is new technology, new ideas, and we 
have too many professors of education who have been out of the 
classroom for too long who don't know anything about this.
    All these great young teachers are saying this is 
wonderful. It is changing my practice. Why did I have to learn 
it on the job? Why didn't I learn it before I got to the job?
    Senator Franken. Another area I would love to ask you about 
is schools that teach teaching and how we teach teachers. I 
have gone way over my time, but most of it was you, frankly.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    I think it is fitting that we end this round--with two 
experts on our committee. We have a former Secretary of 
Education in Senator Alexander and Senator Bennet, former 
superintendent of a large school system in Denver, CO, both of 
whom have a lot of knowledge in this area. It is wonderful 
having them on this committee.
    Senator Alexander.

                     Statement of Senator Alexander

    Senator Alexander. Thanks, Mr. Chairman.
    Mr. Secretary, I congratulate you on your first year. I 
think you have approached it with passion and honesty and 
skill, and I appreciate the way you have worked with 
Republicans as well as Democrats. We don't agree on everything. 
I greatly disagree on what you are doing on student loans, but 
I greatly agree on a number of other things. I would like to 
focus on those.
    One thing I congratulate you on is I counted, this is only 
41 pages, and we don't do comprehensive very well around here. 
This is a helpful blueprint. We asked you for it. We worked 
with you in the development of it, and we will now take it from 
here.
    It is a good beginning for a complex area, and my 
recommendation is instead of getting bogged down in a 
comprehensive reauthorization of a 1,000-page bill, No Child 
Left Behind, that what we really ought to do is focus on a 
handful of agreed problems and fix what is wrong with No Child 
Left Behind. I think your blueprint is an excellent beginning 
for that.
    If I were going to list some of those problems--and I think 
there is general agreement--I would say, first, we need to 
start out by thinking of a different way to talk about the 
schools. We need to catch schools doing things right instead of 
catching them doing things wrong. I know you agree with that. 
It makes it look like we are just running around labeling 
schools as failing.
    No. 2, we need to figure out what to do about the 100 
percent proficiency requirement in 2014.
    No. 3, Senator Coburn and others have mentioned, the highly 
qualified teacher definition needs some work.
    No. 4, what do we do about State standards? A lot is going 
on. You are working with the Governors on that. I, for one, am 
watching that with a lot of interest.
    Greater flexibility in meeting those standards, you have 
talked about that. I think we can get some consensus on that in 
this next 5 or 6 years. Maybe Washington can learn more from 
the States than try to teach the States how to reach their 
goals.
    Using charter schools and parent options, you have been 
courageous on that. In terms of dealing with failing schools, 
evaluation and testing of teachers, and rewarding outstanding 
teaching, you have taken a lead on that.
    I would like to see us--the late Senator Kennedy and 
Senator Byrd and I all worked to consolidate the existing U.S. 
history programs--in one way or another, make them part of 
this.
    I wonder what your reaction is to the thought of taking a 
set of agreed problems and fixing what is wrong as a good way 
to work, and then leave me at least 30 seconds because I have 
one more question.
    Secretary Duncan. I think it is a great, great thought. I 
just want to say, personally, how appreciative I am of your 
leadership and wisdom, and I have learned so much from you over 
this past year and have so much respect for your knowledge and 
your commitment on these issues. You and your staff have been 
phenomenal to work with, and I want you to know how much I 
appreciate that personally.
    A second quick thing I would say is that our staff has 
worked unbelievably hard on the blueprint, and we had staff 
staying up literally all night, night after night, hundreds and 
hundreds of community meetings. The ideas didn't come from us. 
The ideas came from the community. My team has done an 
extraordinary job, and I just want to let you know it has been 
their hard work that got it to you. I am glad it was only 41 
pages.
    Senator Alexander. Mr. Secretary, last night, I was at a 
reception for a college president here, and a woman came up to 
me and thanked me. She said, ``I am still a beneficiary of 
Tennessee's Career Ladder program.'' What she was talking about 
was in 1984, Tennessee became the first State to pay teachers 
more for teaching well.
    I was a naive Governor at the time, and I got into a 2-year 
brawl with the National Education Association over it. 
Eventually, the American Federation for Teachers actually 
supported it pretty well.
    It was the beginning of an effort to try to reward 
outstanding teaching, going back to something another Senator 
said--Senator Sanders--he pointed out that when 70 percent of 
women went to work outside of the home, it created many more 
opportunities for women. We couldn't capture them in the 
classroom, and so we had to compete for excellent teaching.
    I agree with most people who say that parents are first, 
principals and teachers are next. After that, not much else 
makes much difference.
    How do we move ahead in rewarding outstanding teaching? We 
found, in developing our master teacher program in Tennessee, 
that 10,000 teachers voluntarily went up, but it was sort of 
the Model T of all this. A week doesn't go by that one doesn't 
come by and say, ``I wish we still had it.'' After I left, they 
knocked it out. The forces of opposition are always saying, 
``Well, you can't identify one teacher as better than another 
and relate pay to that.''
    Of course, that is just patently absurd because we all 
recognize better teachers. It is difficult, we have found--and 
everyone has found--to find fair ways to reward outstanding 
teaching and then to connect that to student performance. But 
it can be done. If our goal is to help the students, it needs 
to be the holy grail of what we are about. Senator Bennet has 
done a lot of work on that. Senator Corker did as the Mayor of 
Chattanooga.
    My question is you were doing a pretty good job, I thought, 
with the Teacher Incentive Fund because instead of telling 
school districts what to do, we said we will give you some 
money if you can figure out how to do it, and they are all 
doing it in different ways, rewarding outstanding school 
leadership, rewarding outstanding school teaching. I noticed in 
the blueprint that the Teacher Incentive Fund seems to be 
assimilated into a lot of other programs.
    Isn't there a risk that you will lose the Federal 
Government's best effort to help encourage rewarding 
outstanding teaching and tying it to student achievement 
whenever that is appropriate and done in fair ways?
    Secretary Duncan. Great question. I will tell you the best 
thing that the previous Administration did for me--when I was 
running Chicago Public Schools--was we got the largest Teacher 
Incentive Fund grant in the country. Our program was designed 
by 25 of the best teachers in the city. They did a far better 
job than I could have done, and we rewarded excellence.
    We had money for about 20 schools. We only went to schools 
where 75 percent or more of the faculty wanted it, and we had 
120 schools who showed interest. There is a huge unmet demand, 
huge unmet need with teachers out there.
    What we are doing, Senator, to show you we are not going to 
lose that focus, we have actually tried to increase that pot of 
money dramatically--$950 million for competitive and innovative 
teacher and leader reforms, including performance pay and 
tenure reform. Let us keep working it through together, and you 
keep an eye on it.
    Not only are we trying not to lose it, we are trying to 
take it to an entirely different level. We think there are 
many, many innovative school districts in partnership, 
management and teachers working together who want to do this, 
and we want to put far more money than the previous 
Administration had behind these efforts.
    Senator Alexander. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Alexander.
    Now Senator Bennet.

                      Statement of Senator Bennet

    Senator Bennet. Mr. Chairman, thank you very much for 
holding this hearing.
    Mr. Secretary, it is great to see you here. I am on the 
Banking Committee also, and we are going through this 
discussion now about the re-regulation of Wall Street, which is 
very important for us to do. I have been struck sitting here 
today, that those committee hearings are full of photographers, 
there are journalists throughout the room, covering what is 
going on. This room is not being covered in the same way.
    In my judgment, that is a shame because nothing is more 
important than the work that you are doing and the work that 
our teachers are doing, our principals, our kids every day. 
People sometimes say to me, ``Michael, you know, not everybody 
is going to go to college. Don't you know that not everybody is 
going to go.'' This is what I want to ask you about.
    I say that is true, but I am not going to be satisfied 
until it is their choice whether they are going to college or 
not. The reason for that is that when you look at the jobs 
being created in this country, from 1992 to 2002, we created 6 
million jobs for people with a 4-year college degree. We 
created another 6 million jobs for people with some sort of 
advanced degree. We created no jobs for high school degrees, 
and we lost jobs for people that had dropped out of high 
school.
    I don't see any way of dealing with our economic issues 
unless we confront our education issues. We are not doing that 
as a country. The statistics sometimes are mind-numbing. 
Consider the fact that, today, a child in poverty in this 
country stands a roughly 1 in 10 chance of graduating from 
college.
    I counted them up. There are 20 rows here. If this room 
were filled with children in poverty in the United States of 
America, you would have one row at this end with children that 
were going to go to college. You would have one row in the 
other end of this hearing room with children going to college, 
and everybody else in between would not go to college.
    Fifty percent of them would be high-school dropouts. 
Eighty-two percent of the people in our prisons, you alluded to 
this earlier, are high school dropouts. Over half the people 
that have not graduated from high school are not even in the 
labor force anymore.
    So, I don't know. Mr. Secretary, what do you say when 
people say not everybody needs to go to college?
    Secretary Duncan. First of all, I just want to thank you 
for your leadership and passion. I learned so much from you 
during your superintendency in Denver and continue to learn 
from you now, and we are thrilled to have you on this 
committee. It is going to be a great, great partnership.
    There are no good jobs in the legal economy for high school 
dropouts, none. There are almost no good jobs if you just have 
a high school diploma. Some form of higher education--4-year 
universities, 2-year community colleges, trade, technical, 
vocational training--K to 12 has to be a starting point on the 
education journey, and all of our students have to have some 
form of education beyond that.
    I actually think it is a false choice between college and 
careers. Many young people, as you know, go to college and work 
part-time, or vice versa. Actually, skills needed to be 
successful in both are actually very much aligned today, more 
so than ever before.
    To your point, our challenge as a country is not that we 
are forcing students to go to college. Our challenge is that 
far too many of our students are prepared for neither, neither 
the world of work or the world of higher education, and that is 
what is fundamentally happening.
    Senator Bennet. I think that is such an important point 
because when I was superintendent, if you blindfolded me, I 
didn't know whether I was talking to a university president or 
somebody that was running the apprentice shop for the trades, I 
would hear the same thing, which is we need to do too much 
remediation for your kids in math.
    This shows 11 great American cities--Chicago being one, but 
you could put Denver in the list. It is not in the list--where 
85 percent of our kids are not proficient mathematicians. 
Fifteen out of one hundred kids in these cities at most are 
proficient mathematicians.
    I just want to say that, as you know, I have an abiding 
interest in working on the question of how we are going to do a 
better job of attracting and retaining teachers in this 
country. Notwithstanding all of this evidence, notwithstanding 
the chronic shortages that we have all over the country, 
notwithstanding the fact that we are losing half the people 
from the profession roughly in the first 5 years, we have done 
essentially nothing to change the way we think about the 
profession. We haven't changed our thinking about paying people 
or training people or recruiting people or retaining people or 
inspiring people to be teachers since we had a labor market 
that discriminated against women and said you have got two 
professional choices; one is being a teacher and one is being a 
nurse.
    We subsidized our system of public education through that 
system of discrimination. Thank goodness, that hasn't been true 
for 30 years. In my judgment, and I appreciate your leadership 
here very much, this is a time for very bold thinking in this 
country for our school districts, our States, and this country 
to re-imagine the teaching profession as a 21st century 
profession because, otherwise, I think all this other stuff is 
just talk.
    I don't know if you have a response to that?
    Secretary Duncan. No, I couldn't agree more, and talent 
matters tremendously. In politics, in business, in nonprofit 
work, in sports teams, in orchestras, and yes, in education, 
talent matters tremendously. We have to convince the country 
that poverty is not destiny, that we have poor children around 
this country routinely now beating the odds because they had 
great adults in their lives.
    At any time, talent matters tremendously. As you know, we 
have a baby boomer generation that is moving toward retirement. 
Over the next 5, 6, 8 years, we could have as many as 1 million 
teachers retire. Our ability to attract and retain great talent 
over the next few years is going to shape public education for 
the next 30 years in this country. It is a generational shift.
    If we don't take full advantage of this opportunity, if we 
don't think creatively and boldly, as you said, we will condemn 
not just our current students, but a generation of students to 
a lack of opportunity. If we do this well, we transform things 
for decades.
    Senator Bennet. I would just say, Mr. Chairman, finally, 
thank you again to you for holding the hearing. I think, you 
know, and Secretary Duncan knows this as well, there is not a 
harder job in the country than being a teacher in an urban or 
rural school district with children that are living in poverty. 
There is not a harder job.
    It would be difficult for me to imagine that we could do a 
more horrible job supporting their work than we are doing right 
now. I think part of this is going to be solved by all of us 
kind of getting out of our own way here and creating politics 
that will allow us to make revolutionary change, not just 
evolutionary change.
    Because the kids that are in the fourth grade today aren't 
going to get the chance to go through the fourth grade again. 
This is it for them. I look forward to working with you on 
these issues and deeply appreciate your letting me be on the 
committee.
    The Chairman. Thank you, Senator Bennet.
    It is a privilege to have you on this committee, believe 
me. We will be working together on this reauthorization.
    Well, Mr. Secretary, one of the benefits of sitting here 
listening to all this is I have pages of questions and follow-
ups, but we don't have enough time for all that. Let me just 
delve into a couple of things.
    I thought it was interesting when Andreas Schleicher was 
here, and we talked about the OECD countries. A question was 
asked of him, how much does it cost to go to college in some of 
these countries? And he said, ``Oh, nothing.'' As a matter of 
fact, in some of the countries, they pay kids to go to college. 
Boy, that is kind of mind-numbing.
    The second thing he said is they have active recruiting 
policies in these countries of recruiting the top 10 percent of 
students to become teachers. They obviously do that through 
pay, but also through career development, professional 
development, stature, sabbaticals for teachers so they can take 
time off to advance their career, do other things, and then 
come back into teaching.
    Teaching has a much different level of public support and 
stature in those countries than what we have had in ours. That 
is one thing that we have to be thinking about.
    Senator Bennet is right. I just wrote ``bold moves.'' It is 
time to make some bold moves. There is a story that I heard one 
time that I think illustrates some of our problems. There is a 
story about a small community that was on the shores of a lake, 
and they noticed that the beaches, that this community relied 
upon people coming in for vacations. They noticed that the 
shoreline was getting plugged up with refuse and all kinds of 
plastic bottles and junk like that.
    The community got together, the town council, and they 
wanted to clean it up. They levied a bond issue to raise some 
money to hire a company to come clean up all their water and 
their beaches. And the community did that. They cleaned it all 
up, and for a couple years, it was fine. People came back to 
the beaches. People spent money, and then all of a sudden, they 
noticed after a few years, there was refuse along the beach 
again. They went out and floated another bond issue and got a 
company in, cleaned it all up.
    Well, this went on for several cycles until finally someone 
at one of these city council meetings got up and said, ``Where 
is this all coming from?'' No one had asked that question 
before. They found out the lake was fed by a major stream, and 
they went upstream and found out where all the stuff was coming 
from.
    They passed a bond issue to go upstream and stop it all. It 
cost a little bit more, but they did it and they never had any 
problems after that.
    Now I think that story illustrates a lot of the problems 
that we have in elementary and secondary education because 
these kids are coming to school in kindergarten, and they are 
already way behind.
    They are behind in terms of their health because they come 
from poverty, low-income families, as Senator Sanders talked 
about. Their health is bad. They have had no intellectual 
stimulation from the time they were born until the time they 
walked into that school at kindergarten.
    Maybe they have tough home lives. Maybe there are single 
parents who are working one or two jobs just to keep things 
together in our low-wage society. Now we are trying to patch 
and fix it. We are trying to patch it up, and we are always 
kind of playing catch-up.
    Now that is not to say you can't, of course. And you have 
illustrated it. You have said that when a lot of these poor 
kids come in, they are low achieving. With great teachers and 
good schools and good motivation, you can move them on. It 
seems to me that we have got to start focusing upstream on 
where this is coming from.
    You know, here we are talking about elementary and 
secondary education. Why do I have to accept that all we can 
talk about is the time they enter kindergarten until the time 
they graduate from high school? Why am I constrained by that 
if, in fact, we know what is happening on the front end?
    As you have heard me say before, I think it is time to 
rethink elementary education. I am not just saying this to you. 
I know there are a lot of educators in this room. I know there 
are a lot of people who work for education publications and 
things. Maybe I am talking to them, and I am talking to the 
general public out there.
    Maybe we ought to rethink elementary education, as 
beginning at birth. It doesn't begin when that kid walks into 
kindergarten. It begins at birth. If elementary education 
really begins then, then we start to think about how we can 
approach early learning programs. Should it be segmented and 
differentiated out from all the rest of elementary education, 
sort of set aside? Or should it be integrated into it?
    You have heard me say this before, and I think we need to 
keep looking at it. This is not really a question, but just an 
observation. The first question I might have is in regard to 
your blueprint, which calls for ``encouraging increased 
resource equity at every level of the system.''
    I have always had a problem with the way we fund education. 
I have always said that in the United States we have a 
wonderful system of education, which is not top-down, not so 
structured that you can't have diversity and innovation and 
creativity. Local control, the way we have done education, I 
think, is one of the geniuses of our system.
    The failure of our system is how we pay for it. I have said 
for years, where does it say in the Constitution of the United 
States that education has to be paid for by property taxes? 
That is how we have done it even since before we were a 
country. We paid for it with property taxes.
    If you live in an area where there are high-valued housing 
and businesses and good property taxes, you have great schools. 
If you live in a poor area with low property taxes, you have 
bad schools.
    We always say, that we have got to attract teachers to 
those schools and that kind of thing, but now you are also 
saying, we must encourage increased resource equity at every 
level of the system. I don't know that I have ever heard this 
before in all my years on this committee, with all the 
Secretaries of Education, the Presidents, and all the different 
administrations.
    Again, what are your thoughts on what States and districts 
would be required to do to achieve that equity? Not only in 
comparability of resources between high- and low-poverty 
schools, but also in creating a more equitable education system 
overall, where students have access to the same opportunities 
and educational quality regardless of the zip code in which 
they live.
    Could I just ask you to expound on that a little bit? 
Because I have not seen this before. This is good. This is good 
stuff.
    Secretary Duncan. Senator, when I ran the Chicago Public 
Schools, 90 percent of my children came from the minority 
community, and 85 percent lived below the poverty line, 85 
percent. Six miles north of me, in a much wealthier community, 
those children there received twice as much money, more than 
twice as much money per year on their education. Compound that 
every single year over 12 or 13 years, and is that fair? Is 
that equitable?
    I keep saying if we want to close the achievement gap, we 
have to close the opportunity gap. How is it fair that some 
children have access to 60 different types of AP classes, and 
some children have no AP classes, zero? How is it fair that 
some children have state-of-the-art computer labs and science 
labs, and other students are still working with Bunsen burners?
    We have to give every child a chance to fulfill their great 
potential. How do we get great teachers into underserved 
communities? We keep coming back to that. We have created 
almost no incentives and many, many disincentives. I have also 
been fortunate enough throughout my life to see poor children 
from very tough backgrounds and tough communities and sometimes 
dysfunctional families do extraordinarily well because they had 
opportunity.
    So, if we are serious about doing something better, if we 
are serious about just stopping and talking about all the 
statistics and the studies, but actually doing something about 
it, we have to give every child a chance to be successful. That 
is what we are aiming at.
    The Chairman. With both of my hats--on this committee, and 
as chairman of the Appropriations Subcommittee, I am anxious to 
work with you to find a solution. Even if we don't have the 
wherewithal to do it overall, right away, I am looking for 
places where we can target it and show examples and innovate 
things on an experimental type basis.
    Secretary Duncan. And Senator Alexander's point, we need to 
catch more people doing things right.
    The Chairman. That is right.
    Secretary Duncan. There are folks who are doing things 
right often in very, very tough circumstances, and we need to 
highlight that.
    The Chairman. Now, some States have passed equalization 
formulas to try to equalize this out. Quite frankly, some 
States have done a pretty good job of equalizing the property 
tax. Then they use it from their general fund.
    With the States being under the problems now with their 
economies, it is very tough to do that, and some States, quite 
frankly, don't have that kind of revenue. Some States don't 
have income taxes. They don't have very good equalization 
formulas. We still exist with this kind of a problem.
    I am anxious to, as you say, encourage increased resource 
equity at every level of the system. How do we encourage that? 
How do we do that? I look forward to working with you on that.
    The second thing--getting back to early learning. Quite 
frankly, you are the Secretary of Education. You have 
everything, including higher education. We are interested here 
in elementary and secondary education. If we are going to solve 
the problems of higher education, we have got to make sure our 
kids are better educated in elementary and secondary education.
    Regarding early learning and how we focus more on early 
childhood education, is that a proper thing for us to be 
thinking about?
    Secretary Duncan. We have to think about it. I don't see 
how we get where we need to go if we don't think about it. 
Again, if we want students to be college- and career-ready as 
seniors, they need to be kindergarten ready when they are five. 
So, we can't not think about it.
    The President has put out a bold blueprint, a bold plan, a 
vision. Again, almost a $10 billion increase in investment to 
increase access and quality for early childhood education 
around the country, particularly in disadvantaged communities.
    You have worked extraordinarily hard, and I want to thank 
you, to work on this higher education bill to dramatically 
increase access at the higher education side. I hope early 
childhood can be a part of that. If it can't, we need to find 
another way to do that.
    If we want to get out of the catch-up business, if we want 
to stop playing catch-up, we need to do a much better job of 
making sure every child enters kindergarten ready to learn and 
ready to read. Again, that is not just 3- and 4-year-olds. That 
is starting at birth, to your point.
    The Chairman. Well, Mr. Secretary, we are still trying to 
get money in there for early learning. It is being worked on 
now, as a matter of fact. I don't need to delve into what 
happened, because of the CBO scoring and all that. It is a 
shame that we lost that $10 billion, which was sorely needed.
    We are still working to try to save some of it anyway.
    Secretary Duncan. Phenomenal, the work that you are doing.
    The Chairman. And I know you are, too, and the 
Administration also.
    I want to ask you about ongoing assessments. There have 
been a lot of questions about using a snapshot from a test to 
evaluate student learning. What can they do with that 
information?
    There are good programs out there that help teachers 
constantly assess their students. We have one in Iowa that has 
been ongoing for some time. I think it is in two or three 
States, and I have looked at it. I am not an expert in this 
area at all. I have looked at it, and I have talked to 
teachers, and it has been well accepted by teachers. They love 
it, and we don't have it in all our school districts in Iowa 
because of money issues.
    It does give the teachers--it is a software program--a 
constant evaluation of each student, plus the resource 
materials that they need for whatever that student is lacking 
in. Even a simple thing like in math, one teacher told me there 
was a student who was doing fairly well in geometry. But they, 
for some reason, had a problem with angles. They couldn't 
figure out what angles were all about.
    Well, that is an important subset of math. So, they were 
able to get the resource materials to that student and they 
caught up in just that one area where the student couldn't 
excel.
    There are programs like that. There are probably others 
around the country. Are we going to focus on trying to find the 
ones that are really working and try to fund those and get 
those out to schools and out to teachers?
    Secretary Duncan. Absolutely. Again, this is an area that 
8, 10 years ago just didn't exist. There has been this 
flourishing, a breakthrough. There are some phenomenal programs 
out there. I think none of them are perfect. I think this next 
generation is going to be even better.
    As you know, as part of the Race to the Top, we have carved 
out--which we didn't talk about today--$350 million to invest 
in the next-generation assessments. This has to be a huge piece 
of that. There are wonderful things out there. I think, 
honestly, we are scratching the surface, and I think 5, 10 
years from now, we should be at an entirely different level as 
a country. To your point, we can just take those examples of 
success and take them to scale.
    The Chairman. Last, you know how I feel about a well-
rounded education. I know we are focusing on science, 
technology, math, and engineering, all of which are extremely 
important. I don't denigrate that whatsoever. As you heard from 
that young man in Iowa this weekend, he was concerned about 
music and the arts. Where does that fit into this picture?
    Again, I know how you feel about that. We just want to make 
sure that kids get that exposure. It just pains me to see 
because of the downturn in the economy, and in some cases 
because of No Child Left Behind, that the first people let go 
are art and music teachers.
    Not every kid's brain is wired for math, science and 
engineering. Some of them are more artistic, more creative, in 
music and the arts. I hope you feel that is also something we 
just can't throw overboard.
    Secretary Duncan. Hugely important. Again, $265 million for 
history, the arts, financial literacy we talked about, 
languages, a 17 percent increase. Let me say, Senator, it is so 
important. We are trying to put our money where our mouth is, a 
major, major investment.
    We can't do this alone, and I do worry. As you know, times 
have never been tougher at the district and the State level. 
Everyone is cutting back. I worry that the wrong things are 
getting cut. These are very, very tough decisions. When you 
start eliminating band and orchestra and the extracurriculars, 
if we are serious about reducing the dropout rate, those are 
often things that keep students motivated in going to school 
every day.
    I would argue that there is huge data, huge research around 
the correlation between music and math, and students who have 
exposure to music do much better in math. It doesn't take away 
from their math performance. It actually enhances it.
    We are going to invest, but we need districts and States, 
despite horrendously tough times--I know how tough. I have 
heard it everywhere. I heard it with you on Sunday. Despite 
those tough times, we have to put scarce resources where we 
need it most, in those art, music, drama, PE--physical 
education--those things that keep students engaged, keep them 
motivated. If we walk away from those things, we do a grave 
disservice to our children.
    The Chairman. Well, thank you, Mr. Secretary. The last 
thing I would say--and I don't need a response from you--is the 
point that Senator Hagan brought up on financial literacy. You 
just mentioned it. Also in the area of leaving no child behind 
in terms of their health and their well-being.
    We need to have this in our schools, physical exercise, and 
measure that. We know that it can be done. I look forward to 
working with you on making sure that is a part of our 
reauthorization.
    Last, Mr. Secretary, thank you. I think it was Senator 
Bennet who said we have to have some bold changes here and some 
bold innovations. Quite frankly, you are doing that. I 
appreciate that you have this kind of a vision for the future. 
We look forward to working with you on implementing it in the 
reauthorization. More importantly, working with you in this 
Administration to make sure we have the resources to implement 
this bold vision for the future.
    Thank you for your great leadership, Mr. Secretary. We 
really look forward to working with you on getting a great bill 
through this year.
    Secretary Duncan. Thanks for your leadership and 
partnership, we have an opportunity of a lifetime here. If we 
can do the right thing here, we are going to change education 
in this country for decades to come. It is an extraordinary 
opportunity.
    The Chairman. Mr. Secretary, you are the right person in 
the right place at the right time.
    Thank you, Mr. Secretary.
    The committee will stand adjourned, but we will keep the 
record open for 10 days for closing comments and other 
questions.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

   Prepared Statement of the American Association of University Women
    Chairman Harkin, Ranking Member Enzi, and members of the committee 
thank you for the opportunity to submit testimony for the hearing 
``ESEA Reauthorization: The Obama Administration's ESEA Reauthorization 
Priorities.''
    The American Association of University Women is a membership 
organization founded in 1881 with approximately 100,000 members and 
1,000 branches nationwide. AAUW has a proud 128-year history of 
breaking through barriers for women and girls and has always been a 
strong supporter of public education. Today, AAUW continues its mission 
through education, research, and advocacy.
    AAUW believes that quality public education is the foundation of a 
democratic society. In 2002, AAUW joined in the bipartisan enthusiasm 
when the No Child Left Behind (NCLB) law--which reauthorized the 
Elementary and Secondary Education Act of 1965--was first passed, 
hoping the law would provide a remedy for ailing schools and low 
student performance. There are some good ideas in NCLB, such as 
increased teacher and school accountability, higher standards of 
achievement for student progress, supplemental service funds for low-
income students, and public school choice for students who attend 
underperforming schools. In addition, AAUW worked hard for the 
inclusion of programs to serve girls' special needs and was successful 
in ensuring that NCLB included provisions to reauthorize the Women's 
Educational Equity Act; strengthen dropout prevention measures; protect 
girls from sexual harassment in schools; and increase girls' access to 
and interest in technology.
    It has become clear, however, that there is a large difference 
between the ideals espoused in the law and the implementation and 
realization of program goals. While NCLB set lofty aspirations for 
public education, its poorly targeted punitive measures and the law's 
unfunded mandates have left many States and school districts in dire 
straits; in fact, NCLB has been underfunded to the tune of over $85 
billion since its inception--a figure local school boards cannot 
possibly supplant.\1\ AAUW believes it is possible--and necessary--to 
maintain a commitment to high standards and greater accountability in 
our Nation's public schools, but the Federal Government must develop 
measures that do not impose sanctions in a way that undermines success. 
As Congress and the Administration begin to contemplate ESEA 
reauthorization, AAUW offers the following recommendations for 
strengthening the law's goals, improving its implementation, and making 
clear progress in closing the achievement gap:
---------------------------------------------------------------------------
    \1\ National Education Association. (February 4, 2008). Funding 
Gap: No Child Left Behind. Retrieved April 27, 2009, from http://
www.nea.org/assets/docs/fundinggap.pdf.

    <bullet> Strengthening STEM Education: AAUW supports promoting and 
strengthening science, technology, engineering and mathematics (STEM) 
education, especially for girls and other underrepresented populations 
in the fields. In order to close the gender gap in the STEM fields, 
AAUW supports efforts that train teachers to encourage girls and other 
underrepresented groups to pursue STEM careers, and recommends a grant 
program from which schools can cover a number of expenses including 
mentoring, after-school programs, summer programs and internships, 
field trips, etc. Moreover, ESEA should include science as a required 
area of assessment used to calculate Adequate Yearly Progress goals.
    By measuring student performance and disaggregating data by gender, 
race, and socioeconomic status, we can obtain valuable information 
about student aptitude in science and better identify opportunities to 
improve girls' exposure to and achievement in science.
    <bullet> Requiring High Schools Sports Data Collection: AAUW 
believes that high schools should be required to report basic data on 
the number of female and male students in their athletic programs and 
the expenditures made for their sports teams. Access to such data will 
enhance compliance with title IX and aid in the continued expansion of 
athletic opportunities for girls at the high school level. This is 
important because while girls comprise 49 percent of the high school 
population,\2\ they receive only 41 percent of all athletic 
participation opportunities, amounting to 1.3 million fewer 
participation opportunities than male high school athletes.\3\ 
Statistics have shown that girls thrive when they participate in sports 
and are less likely to get pregnant, drop out of school, do drugs, 
smoke, or develop mental illness.\4\
---------------------------------------------------------------------------
    \2\ U.S. Census Bureau, Current Population Survey. (2005). School 
Enrollment, Table 1. Retrieved April 7, 2009, from http://
www.census.gov/population/socdemo/school/cps2005/tab01-01.xls.
    \3\ National Federation of State High School Associations (NFHS). 
(September 18, 2006). Participation in High School Sports Increases 
Again; Confirms NFHS Commitment to Stronger Leadership. Retrieved April 
7, 2009, from http://www.nfhs.org/web/2006/09/
participation_in_high_school_sports_increases_again_again_confirms_nf.as
px.
    \4\ Women's Sports Foundation. (December 12, 2007). Women's Sports 
& Physical Activity Facts & Statistics. Retrieved January 16, 2008, 
from http://www.womenssportsfoundation.org/binary-data/WSF_ARTICLE/
pdf_file/191.pdf.
---------------------------------------------------------------------------
    <bullet> Supporting Reauthorization and Implementation of the 
Women's Educational Equity Act: This law was first enacted in 1974 to 
promote educational equity for women and girls, through the provision 
of funds to help education agencies and institutions meet the 
requirements of Title IX of the Education Amendments of 1972. AAUW 
strongly supports the principles of WEEA and full funding of this act, 
as well as the appropriate application of these funds to meet the goals 
of the program. Title IX remains a vital tool in providing equal 
educational opportunities and WEEA, when used properly, can provide 
critical technical assistance to schools as they work to comply with 
title IX not just in athletics but in all educational programs that 
receive Federal funds.
    <bullet> Creating Environments Free of Bullying and Harassment: The 
implementation of stronger policies to deter bullying and harassment 
will help to ensure a safe learning environment for all students. 
Almost a decade ago, AAUW's own research revealed that 83 percent of 
girls and 79 percent of boys reported having experienced sexual 
harassment, and over one in four students stated that harassment 
happens ``often.'' \5\ More recent research shows that bullying affects 
nearly one in three American school children in grades 6 through 10.\6\ 
AAUW advocates passing legislation to better address bullying and 
harassment; these measures should include the Department of Education 
Office for Civil Rights' definition of harassment and identify the 
classes that are protected (including actual or perceived race, color, 
national origin, sex, disability, sexual orientation, gender identity, 
and religion).
---------------------------------------------------------------------------
    \5\ AAUW Educational Foundation. Hostile Hallways: Bullying, 
Teasing, and Sexual Harassment in School, p. 4 2001.
    \6\ Members of the National Safe Schools Partnership (June 2007). 
Bridging the Gap in Federal Law: Promoting Safe School and Improved 
Student Achievement by Preventing Bullying and Harassment in our 
Schools. Retrieved on April 7, 2009, from http://www.glsen.org/binary-
data/GLSEN_ATTACHMENTS/file/000/000/912-1.pdf.
---------------------------------------------------------------------------
    <bullet> Decreasing the Use of High-stakes Testing and Using 
Multiple Measures: AAUW believes in holding schools accountable for 
demonstrating that they are meeting educational goals. However, it is 
both problematic and discriminatory to rely on tests as the sole 
indicator of student progress. AAUW is supportive of provisions 
encouraging the use of multiple measures of student achievement--
including flexible and innovative growth models and tracking the same 
group of students over time to determine whether schools meet annual 
benchmarks and allowing schools to use a number of factors for 
determining Adequate Yearly Progress (AYP). AAUW joined more than 120 
national education, civil rights and religious organizations in signing 
a statement stating that other key measures that demonstrate student 
achievement and progress should be explored and utilized.\7\ While 
these measures will provide more flexibility, accountability must not 
be lost in the process.
---------------------------------------------------------------------------
    \7\ National Education Association. (April 2008). Joint 
Organizational Statement on ``No Child Left Behind'' Act. Retrieved 
March 3, 2009, from http://www.nea.org/home/1400.htm.
---------------------------------------------------------------------------
    <bullet> Closing the Achievement Gap Once and for All: The past 50 
years have seen continued improvements in proficiency levels among both 
girls and boys across a wide range of subjects. However, the existence 
of an achievement gap continues to stand in the way of true educational 
progress for all. While AAUW's 2008 report, Where the Girls Are, showed 
girls' educational gains have not come at the expense of boys, the 
report also further illuminated large gaps in test scores among 
children of different races and ethnicities and among children from 
different family income levels. For instance, a majority of African-
American and Hispanic 12th graders score below a basic level of 
proficiency in math, while a 23- and 24-point gap exists between 
students of lower-income and higher-income families in reading and 
math, respectively, at grades 4, 8, and 12.\8\ AAUW believes that a 
quality education is a civil right, and strongly supports efforts to 
close this persistent and detrimental achievement gap.
---------------------------------------------------------------------------
    \8\ AAUW Educational Foundation. (May 2008). Where the Girls Are: 
The Facts About Gender Equity in Education, 18-19.
---------------------------------------------------------------------------
    <bullet> Making NCLB Funding Mandatory at the Authorized Levels: 
Research by the Center on Education Policy found that approximately 80 
percent of school districts said they have costs associated with the 
law not covered by Federal funding.\9\
---------------------------------------------------------------------------
    \9\ Center on Education Policy. (2006). From the Capital to the 
Classroom: Year 4 of the No Child Left Behind Act, 4. Retrieved 
December 30, 2008, from http://www.cep-dc.org/_data/global/nidocs/CEP-
NCLB-Report-4.pdf.
---------------------------------------------------------------------------
      Ensuring Adequate Physical Education Classes, and Ensuring Equity 
in Facilities and Equipment Access and Usage: Over the past 25 years, 
the percentage of overweight girls has more than doubled; currently, 16 
percent of girls ages 6 to 19 are overweight, up from 6 percent in 
1974.\10\ Further, minority and low-income girls have the highest rates 
of childhood obesity.\11\
---------------------------------------------------------------------------
    \10\ Girl Scouts of the USA. Girls & Overweight: Key Facts. 
Retrieved December 30, 2008, from http://www.girlscouts.org/research/
publications/original/gs_key_facts_p1c.pdf.
    \11\ Ibid.
---------------------------------------------------------------------------
    <bullet> Continuing to Offer Public School Choice and Flexibility: 
AAUW believes it is in students' best interests to be offered public 
school choice and flexibility, and schools should continue to encourage 
innovative programs and classroom techniques. Such flexibility and 
innovation, however, must be consistent with civil rights law, 
including title IX, and public funds should only be used for public 
education, not private school vouchers.
    <bullet> Improving Teacher Training and Retention: AAUW believes 
there should be a highly qualified teacher in every classroom. NLCB 
reauthorization should include an expansion of programs that improve 
teacher training and retention.
    <bullet> Holding Schools Accountable: Schools should be held 
accountable for demonstrating that they are meeting educational goals, 
but only in such a way that it doesn't create a bigger problem than it 
seeks to solve. NCLB designates schools that fail to meet AYP as ``low-
performing'' and provides sanctions against such schools. AAUW believes 
the Federal Government should offer incentives and assistance to 
struggling schools, rather than punishment, which only serves to 
further harm students.
    <bullet> Cross-Tabulating Data: AAUW recommends that data be cross-
tabulated for State assessment systems, State reporting requirements, 
AYP goals, and graduation rate requirements. Having the most 
accessible, accurate and detailed information will encourage action 
specifically tailored to improve outcomes for those falling behind. 
School districts, educators, and policymakers cannot create the right 
solutions if they do not have the right data to truly know what 
segments of the population need help.
    <bullet> Expanding Afterschool Programs through 21st Century 
Learning Centers: After-school programs should be expanded to enrich 
the school experience and improve educational outcomes. One program 
vehicle might be the 21st Century Community Learning Centers; this 
could also be used to expand STEM programs--currently allowed as an 
option but given no real incentive.
    <bullet> Increasing Access to and Funding for Early Childhood 
Education: Providing a foundation of strong early childhood education 
will help improve and sustain achievement in later years. AAUW supports 
funding increases for Head Start and Early Head Start to ensure all 
children are prepared for school, as well as access to high-quality and 
affordable child care to ease the burden on working families and expand 
educational opportunities.\12\
---------------------------------------------------------------------------
    \12\ The Office of the President-Elect (2008). Education: The 
Obama-Biden Plan. Retrieved December 23, 2008, from http://change.gov/
agenda/education_agenda/.

    For more than 125 years, AAUW has fought for educational equity and 
achievement in our Nation's public schools. Reauthorization of ESEA 
represents a tremendous opportunity to make significant strides in this 
direction, and we are committed to putting our full resources behind 
this effort. AAUW looks forward to working with you on this significant 
legislation in the year ahead.
    Thank you for the opportunity to submit testimony.

    [Whereupon, at 12:41 p.m., the hearing was adjourned.]

                                   

      

</pre></body></html>
